<html>
<title> - EVALUATING THE SYNTHETIC DRUG CONTROL STRATEGY</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
             EVALUATING THE SYNTHETIC DRUG CONTROL STRATEGY

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 16, 2006

                               __________

                           Serial No. 109-216

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
33-394                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
------ ------

                      David Marin, Staff Director
                Lawrence Halloran, Deputy Staff Director
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
PATRICK T. McHenry, North Carolina   ELIJAH E. CUMMINGS, Maryland
DAN BURTON, Indiana                  BERNARD SANDERS, Vermont
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
GIL GUTKNECHT, Minnesota             DIANE E. WATSON, California
STEVEN C. LaTOURETTE, Ohio           LINDA T. SANCHEZ, California
CHRIS CANNON, Utah                   C.A. DUTCH RUPPERSBERGER, Maryland
CANDICE S. MILLER, Michigan          MAJOR R. OWENS, New York
VIRGINIA FOXX, North Carolina        ELEANOR HOLMES NORTON, District of 
JEAN SCHMIDT, Ohio                       Columbia

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     J. Marc Wheat, Staff Director
                        Dennis Kilcoyne, Counsel
                           Malia Holst, Clerk
                     Tony Haywood, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 16, 2006....................................     1
Statement of:
    Burns, Scott, Deputy Director for State and Local Affairs, 
      Office of National Drug Control Policy; Uttam Dhillon, 
      Director, Office of Counter-Narcotics Enforcement, 
      Department of Homeland Security; Joseph Rannazzissi, Deputy 
      Assistant Administrator, Office of Diversion Control, Drug 
      Enforcement Administration; and Dr. Don Young, Acting 
      Assistant Secretary for Planning and Evaluation, Department 
      of Health and Human Services...............................    18
        Burns, Scott.............................................    18
        Dhillon, Uttam...........................................    27
        Rannazzissi, Joseph......................................    32
        Young, Dr. Don...........................................    47
    Coleman, Eric, Oakland County commissioner, National 
      Association of Counties; Lewis E. Gallant, executive 
      director, National Association of State Alcohol and Drug 
      Abuse Directors; Sherry Green, executive director, National 
      Alliance for Model State Drug Laws; Sue Thau, public policy 
      consultant, Community Anti-Drug Coalitions of America; and 
      Ron Brooks, president, National Narcotics Officers' 
      Associations' Coalition, director, Northern California 
      HIDTA......................................................    65
        Brooks, Ron..............................................   168
        Coleman, Eric............................................    65
        Gallant, Lewis E.........................................    79
        Green, Sherry............................................   116
        Thau, Sue................................................   144
Letters, statements, etc., submitted for the record by:
    Brooks, Ron, president, National Narcotics Officers' 
      Associations' Coalition, director, Northern California 
      HIDTA, prepared statement of...............................   170
    Burns, Scott, Deputy Director for State and Local Affairs, 
      Office of National Drug Control Policy, prepared statement 
      of.........................................................    21
    Coleman, Eric, Oakland County commissioner, National 
      Association of Counties, prepared statement of.............    67
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    10
    Dhillon, Uttam, Director, Office of Counter-Narcotics 
      Enforcement, Department of Homeland Security, prepared 
      statement of...............................................    29
    Gallant, Lewis E., executive director, National Association 
      of State Alcohol and Drug Abuse Directors, prepared 
      statement of...............................................    81
    Green, Sherry, executive director, National Alliance for 
      Model State Drug Laws, prepared statement of...............   118
    Rannazzissi, Joseph, Deputy Assistant Administrator, Office 
      of Diversion Control, Drug Enforcement Administration, 
      prepared statement of......................................    34
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     4
    Thau, Sue, public policy consultant, Community Anti-Drug 
      Coalitions of America, prepared statement of...............   146
    Young, Dr. Don, Acting Assistant Secretary for Planning and 
      Evaluation, Department of Health and Human Services........    49


             EVALUATING THE SYNTHETIC DRUG CONTROL STRATEGY

                              ----------                              


                         FRIDAY, JUNE 16, 2006

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:05 a.m., in 
room 2247, Rayburn House Office Building, Hon. Mark E. Souder 
(chairman of the subcommittee) presiding.
    Present: Representatives Souder, Cummings, Watson, and 
Norton.
    Staff present: J. Marc Wheat, staff director and chief 
counsel; Dennis Kolcoyne, counsel; Malia Holst, clerk; Tony 
Haywood, minority counsel; and Jean Gosa, minority assistant 
clerk.
    Mr. Souder. The subcommittee will come to order. Good 
morning, and I thank you all for coming. We have been looking 
forward for some time now to the release of the synthetic drug 
control strategy which was finally unveiled on June 1st. Today 
we will hear from several witnesses as to the strengths and 
weaknesses of this plan.
    With the near universal recognition that methamphetamine 
addiction has become an epidemic, it is imperative that the 
Federal Government provide the best possible leadership and 
vision on this pressing social and law enforcement problem. 
State and local governments, as well as many private agencies 
devoted to helping families and communities cope with this 
scourge have long complained that, no matter how diligent non-
Federal actors have been or could be, nothing can fill the void 
of national direction. Only Federal leadership will suffice, 
and many have awaited the new strategy with guarded-only 
optimism.
    There seem to be ample reason for concern as to the 
administration's commitment to amass strategy. We can hardly 
forget a key presentation at the HHS-sponsored conference in 
Utah last August 19th, which said, ``We don't need a war on 
methamphetamine.'' Nor can we forget, as the New York Times 
reported on December 15th, that FDA was working behind the 
scenes to block the Combat Meth Act.
    This strategy sets three primary goals: One, a 15 percent 
reduction in methamphetamine abuse; two, a 15 percent reduction 
in prescription drug abuse; and three, a 25 percent reduction 
in domestic methamphetamine laboratories.
    The strategy itself concedes that the first two goals may 
be met without much change in the Federal response given that 
recent trends already may be moving in that direction. The 
third goal is likely to be achieved due to tough restrictions 
on precursor chemicals set out first by most of the States and 
now by Congress to the Combat Methamphetamine Epidemic Act 
enacted this spring with virtually no support, and even some 
opposition from the administration.
    With the national standard for precursor chemical control 
soon to be in full effect through the Combat Methamphetamine 
Epidemic Act, hopes are high for significant declines in 
domestic meth production, but meth will remain readily 
available, unless international diversion of precursor 
chemicals can be stopped. This is borne out by the increased 
smuggling of meth across the southwest border, as Mexican drug 
traffickers move to exploit the decline in domestic meth 
production.
    Accordingly, the strategy begins with this international 
aspect, laying out three prongs. One, attaining better 
information about international trade in pseudoephedrine; two, 
swift and effective implementation of the Combat Meth Act; and, 
three, continued law enforcement and border activities and 
continued partnership with Mexico.
    Regarding the first prong, the administration has been 
taking some positive steps and recognizes that the problem 
cannot be tackled until its international nature and scope is 
fully understood. The challenge begins with this hopeful fact: 
The main precursor chemical pseudoephedrine, PSE, is produced 
in a handful of countries, chiefly in China, India, and 
Germany. If exportation of PSE can be tracked and controlled 
from its sources, we could go a long way in choking off the 
essential ingredient needed by criminal organizations now 
profiting by producing meth chiefly in Mexico and distributing 
it throughout this country. Fortunately, the administration has 
been making diplomatic efforts through the U.N. Commission on 
Narcotic Drugs to persuade some reluctant governments that the 
meth epidemic is global, and that they should get with the 
program.
    Though the implementation of the Combat Meth Act is the 
second prong of the international meth strategy, the strategy 
restates provisions of the law while not always describing how 
ONDCP will ensure that implementation will be carried out by 
responsible agencies.
    The third prong of the international segment of the 
strategy, that of law enforcement at the border and partnership 
with Mexico, summarizes current bilateral law enforcement 
efforts within Mexico. Efforts to train Mexican law enforcement 
and significantly upgrade its quality are extensive. Mexico has 
also moved aggressively to curtail illegal diversion of meth 
precursors, and in some respects, it is ahead of the United 
States in this area.
    Although the strategy states that its intent is to 
strengthen border protection, it disturbingly fails to 
elaborate on this at all and is completely silent on what will 
be done in this area. In fact, the strategy makes no mention of 
the Department of Homeland Security, which contains multiple 
agencies tasked with border security and counterdrug 
activities.
    This is almost shocking, considering that it now seems 
universally accepted within the administration that 
approximately 80 percent of the meth being consumed in this 
country is coming from Mexico. Stopping meth smuggling from 
Mexico is clearly imperative, and yet the strategy fails to 
explain why border protection is adequate or just how such 
protection will be strengthened.
    The domestic aspect of the strategy leans heavily on the 
requirement of working closely with State and local officials. 
The strategy acknowledges that the overwhelming majority of 
drug arrests and prosecutions, over 90 percent, are conducted 
by State and local authorities. Nonetheless, we have been told 
by people we trust that there wasn't much consultation or 
dialog with State and local officials in crafting this 
strategy. And while it touts the efforts of State and local 
authorities, the administration seeks to drastically cut the 
Federal programs which have been essential to State and local 
law enforcement.
    For example, the administration wants Congress to eliminate 
the Byrne Justice Assistance Grants Program, JAG. In 2004, one 
third of all the meth labs seized were taken down by JAG-funded 
State and local drug task forces. The strategy fails to explain 
how the State and local authorities can be expected to keep up 
this pace of lab seizures if the administration succeeds in 
gutting the very programs that make it possible. Why would you 
hold a press conference about a strategy based on programs you 
are proposing to eliminate?
    The administration has asserted that prevention is one of 
the three pillars of its anti-drug efforts. Yet, declining 
funding in this area, only at 11.7 percent of the drug control 
budget, casts doubt on this claim. And the strategy is thin on 
prevention, with only a brief reference to research under way 
at the National Institute on Drug Abuse, NIDA, and almost as 
brief a discussion of the National Youth Antidrug Media 
Campaign. The discussion ends by noting the importance of 
voluntarily airing the ads by local radio and TV stations, yet 
it says nothing about how such voluntary airing will be 
encouraged.
    One of the most appalling aspects of meth is its grisly 
aftermath. This includes children who are poisoned due to 
chemical saturation in homes where meth is produced as well as 
cleanup of lab sites. And there are stories in the annals of 
the meth epidemic of law enforcement personnel or firemen 
wounded or killed by lab site explosions or inhalation of 
chemical fumes.
    While much of what is in this brief section is not 
considered a part of the strategy per se, the administration 
should be praised for its commitment to the drug endangered 
children, the DEC program. While DEC training has occurred in 
28 States, the strategy asserts that ONDCP will work to achieve 
DEC training in all 50 States by 2008, with no further details 
offered. Hopefully, this excellent program will find more 
aggressive advocates on the Federal level.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T3394.001
    
    [GRAPHIC] [TIFF OMITTED] T3394.002
    
    [GRAPHIC] [TIFF OMITTED] T3394.003
    
    Mr. Souder. We have a good mix of witnesses with us today. 
Our first panel consists of the Honorable Scott Burns, Deputy 
Director for State and Local Affairs of the Office of National 
Drug Control Policy; the Honorable Tom Dhillon, Director of 
Counter-Narcotics Enforcement from the Department of Homeland 
Security; Joseph Rannazzissi, Deputy Assistant Administrator of 
DEA's Office of Diversion Control; and, finally, of Dr. Don 
Young, Acting Assistant Secretary for Planning and Evaluation 
at the Department of Health and Human Services.
    Our second panel will give us State and local perspective. 
We have Mr. Ron Brooks, president of the National Narcotics 
Officers' Associations' Coalition; the Honorable Eric Coleman 
of the Oakland County Board of Commissioners in Michigan, 
representing the National Association of Counties; Dr. Lewis 
Gallant, executive director of the National Association of 
State Alcohol and Drug Abuse Directors; Ms. Sherry Green, the 
executive director of the National Alliance for Model State 
Drug Laws; and finally, we have Ms. Sue Thau, public policy 
consultant for the Community Antidrug Coalitions of America.
    Again, we thank you all for coming from so many places 
across the country to be here today. We look very much forward 
to your testimony. I would like to yield to our ranking member, 
Mr. Cummings.
    Mr. Cummings. Good morning, Mr. Chairman. Good morning, 
everyone. I want to thank you, Mr. Chairman, for holding this 
very important hearing today to evaluate the administration's 
recently announced synthetic drug control strategy.
    Growing abuse of methamphetamine, other legal synthetic 
drugs like ecstasy and a variety of pharmaceutical drugs 
defines a major recent trend in drug abuse. The recent 
enactment of the Combat Meth Act and the administration's 
release of a synthetic drug control strategy earlier this month 
underscore the seriousness of the problem. Meth, in particular, 
has captured the attention of lawmakers and the media with the 
devastating impact it is having on entire communities in many 
areas of our country.
    A powerfully addictive synthetic stimulant that has been 
around for more than 30 years, meth, until relatively recently, 
was concentrated in western States, including California, 
Arizona, and Utah. The recent eastward expansion of meth 
production, trafficking, and abuse has led to the drug suddenly 
becoming recognized as one of the primary drug threats facing 
our Nation today. Indeed, not since the introduction of crack 
cocaine into the streets of major cities like my city of 
Baltimore, New York, and Chicago, have we seen such an outcry 
for an aggressive antidrug response by the government at all 
levels.
    A July 2005 report by the National Association of Counties, 
the Meth Epidemic in America, identifies meth as the No. 1 
illegal drug threat facing most of the 500 counties that 
participated in a survey of local law enforcement agencies. 
Moreover, the drug's destructive impact on families has 
contributed to a significant increase in child welfare roles in 
hundreds of counties across the Nation according to the same 
report.
    Meth is relatively unique in that it can be manufactured by 
lay-people using ingredients purchased in the U.S. retail 
stores and recipes available on the Internet. This has enabled 
most of the production of U.S. consumed methamphetamine to 
occur domestically both in so-called super labs that produce 
large amounts of high purity meth, and in clandestined labs 
that are small enough to be operated in homes, apartments, 
hotel rooms, rented storage space, and trucks. The 
environmental damage caused by meth production can be severe, 
and the cost of cleaning up the toxic wastes from these sites 
is immense. Because the ingredients are extremely volatile in 
combination, labs also pose a grave risk of harm both to the 
so-called meth cooks who make the drug and to the individuals 
living in close proximity to the activity. Many labs are 
discovered only after an explosion has occurred. Law 
enforcement officers tasked with finding or dismantling labs 
are forced to share the risk.
    All too often, the collateral victims of meth abuse are the 
young children of addicts and cooks. These children live with 
the constant risk of harm from explosions, exposure to toxic 
chemicals, and extreme familial neglect. As the National 
Association of Counties report and countless news reports have 
described, these conditions have led to a large number of 
children being taken from the custodial control of their 
parents and placed in foster care.
    Sadly, the health and behavior effects that result from 
prenatal exposure to meth and from severe family neglect or 
abuse make the children of meth addicted parents especially 
challenging for foster families to care for and difficult to 
place. Absent effective treatment for the parents of displaced 
children, re-uniting families torn apart by meth may be almost 
impossible.
    Meth abuse has not yet become a major problem in the 
communities of Baltimore City, in Baltimore and Howard Counties 
where I represent. But the rapid spread of meth production, 
trafficking, and abuse in the United States underscores the 
fact that America's drug problem affects all parts of this 
Nation, rural, suburban, and urban alike, and that no community 
is immune to the introduction of a dangerous new drug threat. 
Drugs, unlike people, do not discriminate on the basis of 
color, class, or geography.
    States have been at the forefront of efforts to develop 
effective policies and strategies to combat the growth of meth 
abuse, production, and trafficking in the United States. States 
including Oklahoma have successfully used restrictions on 
retail sale of cold products containing meth precursor 
chemicals to drive down the volume of meth production in 
clandestined labs. Federal legislative efforts to address the 
meth epidemic, including the Combat Meth Act enacted earlier 
this year, similarly have focused largely on limiting over-the-
counter access to products containing precursor chemicals as 
well as on limiting the illegitimate importation and 
exportation of meth precursor chemicals across the 
international borders.
    The administration's new synthetic drug control strategy 
emphasizes these objectives, and I believe Congress and the 
administration should continue to pursue them. At the same 
time, Mr. Chairman, I believe it is difficult to overestimate 
the importance of education, prevention, and in particular, 
drug treatment as we attempt to stifle this growing epidemic.
    Despite some popular notions to the contrary, research from 
the Center for Substance Abuse Treatment shows that meth 
addiction can be effectively treated, and that the benefits of 
treating meth addiction are similar to the benefits derived 
from treating addiction to other drugs; use of the drug is 
sharply reduced, criminal activity and recidivism declined, 
employment status and housing status improve, and overall 
health improves. Ensuring that people who have become dependent 
upon meth have access to effective treatment is therefore 
essential to stopping this problem that is creeping across our 
country.
    Unfortunately, it bears noting that the 53-page strategy 
announced by the administration devotes just 3\1/2\ pages to 
prevention and treatment combined. Indeed, several important 
programs that contribute to reducing demand for meth and other 
synthetic drugs are not even mentioned in the strategy, which 
is incredible. In the case of Safe and Drug Free Schools State 
grants, for example, this is no doubt because the problem has 
been targeted for elimination in the President's budget.
    This leads to the broader concern that this strategy, even 
as it purports to be comprehensive, appears to reflect the same 
flawed balance of priorities embodied in the overall Federal 
drug control budget proposed by the President. Over the past 6 
years, we have seen prevention and treatment dollars decrease 
from 47 percent to merely 35 percent of the Federal drug 
budget. Even programs that support Mexican drug enforcement at 
the State and local levels have been targeted for elimination 
or deep cuts, as funding for supply reduction efforts beyond 
our borders expands without solid justification. The High 
Intensity Drug Trafficking Areas Program, COPS meth grants, and 
the Byrne Justice Assistance grants, all critical programs, 
would be eroded or eliminated.
    Given these facts, I think one of the central questions 
raised by today's hearing is this: Does the strategy genuinely 
reflect an ambitious forward-thinking effort to devise the most 
comprehensive and effective synthetic drug strategy our Federal 
drug policy efforts can muster? Or does it instead represent 
mere lumping together in one document of preexisting ideas, 
initiatives, and priorities inside a new glossy cover?
    To help us answer these and other questions, we are 
fortunate to have appearing before us today representatives of 
several Federal agencies tasked with formulating and 
implementing various aspects of the synthetic drug strategy, as 
well as a number of outside organizations that contribute 
greatly to the Nation's antidrug efforts through their 
dedication and expertise. I look forward to hearing the 
testimony of all our witnesses concerning the content of the 
strategy, the manner in which it was formulated, and their 
perspectives on whether and to what extent the strategy 
adequately describes the best possible formula for beating back 
the growing threats of illegal synthetic drugs and prescription 
drug abuse.
    Mr. Chairman, I thank you for your relentless attention to 
this issue, and I also thank each of our witnesses for 
appearing here today. With that, I yield back.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T3394.004

[GRAPHIC] [TIFF OMITTED] T3394.005

[GRAPHIC] [TIFF OMITTED] T3394.006

[GRAPHIC] [TIFF OMITTED] T3394.007

[GRAPHIC] [TIFF OMITTED] T3394.008

[GRAPHIC] [TIFF OMITTED] T3394.009

[GRAPHIC] [TIFF OMITTED] T3394.010

    Mr. Souder. Ms. Watson.
    Ms. Watson. Mr. Chairman, I want to thank you for holding 
this hearing that is critical to the understanding of the 
administration's heavily anticipated synthetic drug control 
strategy.
    Eliminating drug smuggling and distribution throughout the 
United States is vital in keeping our communities safe. There 
have been several programs unveiled by the public and nonprofit 
sectors throughout the United States. These programs are going 
to be the next new innovation in helping us eradicate our drug 
problem. Some have been good and some have been not so good. 
None of them have been the ultimate problem solver. The new 
strategy set forth by the Office of the National Drug Control 
Policy is very ambitious but not impossible if funding and 
resources are at a sufficient level.
    The three goals set forth in this strategy are excellent. 
If we could accomplish what the plan sets out, including 15 
percent reduction in prescriptive drug abuse, 25 percent 
reduction in methamphetamine labs, and 15 percent reduction of 
methamphetamine use, it would be of great benefit to our people 
and our streets. While they are great goals, the question of 
how they are going to be met with the administration's funding 
cut proposals need to be addressed. Can these goals be 
accomplished when the administration wants a $23.6 million cut 
in the Justice Department's community-oriented policing 
services meth hot spots program? Can these goals be met when 
the administration wants to eliminate the Edward Byrne Memorial 
Justice Assistance grant program?
    My family personally has been affected by meth use. My 
niece at the end of May passed due to the abuse of this killer 
drug. It affected her vital organs, she had a hole in her 
heart, from age 19 to age 22. We suffered along with her. The 
treatment programs we enrolled her in did absolutely nothing. 
Every method that we as a family and friends used to try and 
help her did not work. Prevention could have saved her. We 
lived in an upscale community in Sacramento, she lived with me, 
and we were right there. Did not notice until too late. Tried 
to save her and failed. So a focus on prevention so users would 
not have to face treatment is essential.
    The administration states that prevention is an essential 
component of its three pillars of antidrug efforts. The decline 
of funding in this area has cast major doubts on their claim. 
If the administration is serious about creating a solution to 
this problem, fund each mandate sufficiently.
    And so I want to thank the panelists for your willingness 
to come and testify before this subcommittee so we can 
understand how this new drug control strategy will be 
implemented in the midst of major cuts in funding. I don't want 
to see anyone suffer as my niece and her loved ones did.
    We must realize that drug use is international in scope, 
and for every one life that is lost to drugs, many are 
affected. So, Mr. Chairman, thank you so very much for this 
hearing today.
    Mr. Souder. Thank you. And thank you for your continued 
aggressive and active interest in this committee. It has truly 
been a bipartisan effort as we move through this and other 
drugs, and we are looking forward to our hearing on treatment 
as well that is coming up in just a few weeks.
    First, I would like to ask unanimous consent that all 
Members have 5 legislative days to submit written statements 
and questions for the hearing record, and that any answers to 
written questions provided by the witnesses also be included in 
record. Without objection, it is so ordered. I also ask 
unanimous consent that all exhibits, documents, and other 
materials referred to by Members and the witnesses may be 
included in the hearing record, and that all Members be 
permitted to revise and extend their remarks. Without 
objection, it is so ordered.
    Our first panel is composed of the Honorable Scott Burns, 
Deputy Director for State and Local Affairs at the Office of 
National Drug Control Policy; the Honorable Tom Dhillon, 
Director of the Office of Counter Narcotics Enforcement, 
Department of Homeland Security; Mr. Joseph Rannazzissi, Deputy 
Assistant Administrator of the Office of Diversion Control of 
DEA, Drug Enforcement Administration; and Dr. Don Young, Acting 
Assistant Director or Secretary for Planning and Evaluation for 
the Department of Health and Human Services.
    As an oversight committee, it is a standard practice to ask 
witnesses to testify under oath. If you will raise your right 
hands, I will administer the oath to you.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that all the witnesses have 
answered in the affirmative.
    Mr. Burns, thank you for joining us. You are now recognized 
for 5 minutes.

STATEMENTS OF SCOTT BURNS, DEPUTY DIRECTOR FOR STATE AND LOCAL 
AFFAIRS, OFFICE OF NATIONAL DRUG CONTROL POLICY; UTTAM DHILLON, 
 DIRECTOR, OFFICE OF COUNTER-NARCOTICS ENFORCEMENT, DEPARTMENT 
  OF HOMELAND SECURITY; JOSEPH RANNAZZISSI, DEPUTY ASSISTANT 
 ADMINISTRATOR, OFFICE OF DIVERSION CONTROL, DRUG ENFORCEMENT 
 ADMINISTRATION; AND DR. DON YOUNG, ACTING ASSISTANT SECRETARY 
  FOR PLANNING AND EVALUATION, DEPARTMENT OF HEALTH AND HUMAN 
                            SERVICES

                    STATEMENT OF SCOTT BURNS

    Mr. Burns. Thank you, Mr. Chairman, Ranking Member 
Cummings, Congresswoman Watson, thank you for the opportunity 
to appear before you today to discuss the administration's 
synthetic drug control strategy. I want to thank the 
subcommittee for its strong bipartisan commitment to reducing 
the illicit use of all drugs.
    The Synthetic Drug Control Strategy was released on June 
1st, and represents a firm commitment by the administration to 
work toward ambitious and concrete reductions in the illicit 
use of methamphetamine and prescription drugs as well as in the 
number of domestic methamphetamine laboratories.
    Specifically, the strategy aims to reduce methamphetamine 
use by 15 percent over 3 years, illicit prescription drug use 
by 15 percent over 3 years, and domestic methamphetamine 
laboratory seizures by 25 percent over 3 years. In these 
respects, it is similar to the administration's National Drug 
Control Strategy in that it is both ambitious and achievable.
    The synthetic strategy also recognizes that supply and 
demand are the ultimate drivers in an illicit drug market, and 
that a balanced approach incorporating prevention, treatment, 
and market disruption initiatives is the best way to reduce the 
supply of and the demand for illicit drugs.
    The most urgent priority of the Federal Government toward 
reducing the supply of methamphetamine in the United States 
will be to tighten the international market for chemical 
precursors, such as pseudoephedrine and ephedrine, as you know, 
used to produce this drug. Toward this end, the Office of 
National Drug Control Policy Director John Walters has met with 
Ambassadors from China, India, and the European Union. The 
administration worked with allies in the international 
community to draft, promote, and adopt a resolution on 
synthetic drug precursors, particularly methamphetamine 
precursors, at the annual meeting of the United Nations 
Commission on Narcotic Drugs.
    Other important parts of the synthetic strategy are swift 
and effective implementation of the Combat Meth Act and our 
continued partnership with Mexico. Domestically, the synthetic 
strategy recognizes the critical role that State and local law 
enforcement as well as treatment and prevention professionals 
play in addressing the methamphetamine threat. And, in fact, I 
would be remiss if I did not recognize the role that State and 
local policy and law enforcement officials have played in 
addressing, in particular, the problem of methamphetamine 
production in the United States.
    The synthetic strategy contains a 10-part plan to enhance 
the Federal partnership with State and local agencies related 
to methamphetamine, focusing on initiatives such as helping 
drug endangered children programs expand nationwide, holding 
four regional and one national methamphetamine conference, and 
better sharing of data and assisting States in developing their 
own regional drug control strategies related to synthetic 
drugs.
    The synthetic strategy also addresses prescription drug 
abuse. The administration's ambitious goal of reducing 
prescription drug abuse by 15 percent by the end of 2008 must 
balance two general policy concerns: First, to be aggressive in 
reducing overall user abuse; and, second, to avoid overreaching 
and avoid making lawful acquisition of medications unduly 
cumbersome. The seriousness of this problem cannot be 
overstated as prescription drug abuse has risen to become the 
second most serious drug problem when measured in terms of 
prevalence, with past year abusers numbering approximately 6 
million.
    The administration will continue to target doctor shopping 
and other prescription fraud as well as illegal on-line 
pharmacies, continue to thwart thefts and burglaries from homes 
and pharmacies, focus on strategies to combat stereotypical 
drug dealing, and to investigate and prosecute those in the 
medical profession to be distinguished from the vast majority 
that prescribe appropriately, who are engaged in illegal 
overprescribing for profit.
    Mr. Chairman, Ranking Member Cummings, Congresswoman 
Watson, I would like to personally thank you and members of the 
subcommittee and the members of the House and Senate meth 
caucuses for your individual and combined efforts in addressing 
these issues. I look forward to working with you and members of 
this subcommittee as the strategy is implemented, and 
conferring along the road as we strive together to meet the 
goals we have set forth on behalf of the American people. Thank 
you. And I look forward to any questions the subcommittee may 
have.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Burns follows:]

    [GRAPHIC] [TIFF OMITTED] T3394.011
    
    [GRAPHIC] [TIFF OMITTED] T3394.012
    
    [GRAPHIC] [TIFF OMITTED] T3394.013
    
    [GRAPHIC] [TIFF OMITTED] T3394.014
    
    [GRAPHIC] [TIFF OMITTED] T3394.015
    
    [GRAPHIC] [TIFF OMITTED] T3394.016
    
    Mr. Souder. Mr. Dhillon.

                   STATEMENT OF UTTAM DHILLON

    Mr. Dhillon. Thank you, Mr. Chairman, Ranking Member 
Cummings, and Representative Watson. Thank you for the 
opportunity to appear before you today to testify on behalf of 
the Department of Homeland Security in support of the 
administration's National Synthetic Drug Control Strategy. And 
I look forward to working with this subcommittee in our common 
fight against the illicit use of methamphetamine and other 
synthetic drugs.
    As the Director of Office of Counter Narcotics Enforcement, 
it is my responsibility to coordinate counternarcotics policy 
within the Department of Homeland Security and between the 
Department and other Federal departments and agencies.
    I understand that methamphetamine abuse is a serious issue 
facing our Nation. According to a recent report by the National 
Association of Counties, 58 percent of counties surveyed said 
that methamphetamine was their largest drug problem, followed 
by cocaine, marijuana, and heroin.
    Increasingly, the methamphetamine that supplies the U.S. 
drug market is produced internationally, and the Department of 
Homeland Security is committed to stopping the flow of 
methamphetamine and its precursors into our country. The 
administration's Synthetic Drug Control Strategy, like the 
National Drug Control Strategy, postulates a balanced approach 
by incorporating prevention, treatment, and market disruption 
initiatives as the best courses of action to reduce the supply 
of, and demand for, illicit drugs.
    The Department of Homeland Security is in a unique position 
to focus on market disruption through the strategic goals 
outlined in the Department's Secure Border Initiative [SBI]. 
The Department of Homeland Security's Secure Border Initiative 
is a comprehensive approach to border control and enforcement 
through the integration of technology, infrastructure, 
communications, and command and control designed to disrupt and 
dismantle criminal organizations by preventing and deterring 
cross-border crime including but not limited to illicit drugs. 
SBI will provide a comprehensive multi-year plan for more 
agents to patrol our borders, secure our ports of entry, and 
enforce immigration laws as well as providing a comprehensive 
and systemic upgrading of the upgrading used in controlling the 
border, including increased manned aerial assets, expanded use 
of unmanned aerial vehicles, and next generation detection 
technology.
    Through SBI, the Department of Homeland Security has 
developed a Border Enforcement Security Task Force [BEST], and 
now has a practical vehicle to directly partner with State and 
local law enforcement officials to combat drug trafficking and 
border violence. BEST is charged with sharing information, 
developing priority targets, and executing coordinated law 
enforcement operations to enhance border security. By 
establishing a new connectivity between the Department's 
intelligence community and law enforcement, BEST provides a 
focused response to intelligence driven identified targets such 
as criminal organizations that violate the border, and will 
improve the Department's overall effectiveness against the full 
range of criminal activity along the border.
    The Department of Homeland Security fully embraces its 
counternarcotics mission, and will do its part to ensure the 
success of the Synthetic Drug Control Strategy by working 
cooperatively with our Federal, State, and local law 
enforcement partners tasked with combating the flow of illicit 
drugs into the United States.
    Thank you. And I look forward to answering your questions.
    Mr. Souder. Thank you very much.
    [The prepared statement of Mr. Dhillon follows:]

    [GRAPHIC] [TIFF OMITTED] T3394.017
    
    [GRAPHIC] [TIFF OMITTED] T3394.018
    
    [GRAPHIC] [TIFF OMITTED] T3394.019
    
    Mr. Souder. Mr. Rannazzissi.

                STATEMENT OF JOSEPH RANNAZZISSI

    Mr. Rannazzissi. Good morning, Chairman Souder, Ranking 
Member Cummings, Congresswoman Watson. On behalf of 
Administrator Karen P. Tandy, thank you for the opportunity to 
testify before you today regarding the Synthetic Drug Control 
Strategy. This strategy is a companion document to the 
President's National Drug Control Strategy.
    The unique nature of synthetic drugs warrants a targeted 
response. DEA's efforts to address the synthetic drug problem 
have been ongoing for decades. The strategy provides DEA and 
contributing agencies a framework to continue our ongoing 
efforts and to chart new milestones to achieve domestic and 
international progress against methamphetamine and other 
synthetic drugs.
    DEA worked with DOJ and ONDCP to implement a comprehensive 
innovative strategy to reduce availability of synthetic drugs 
and strengthen the international and domestic law enforcement 
mechanisms. The strategy focuses principally on methamphetamine 
and pharmaceutical control substances and incorporates many 
ongoing DEA programs that target these substances.
    Methamphetamine is a unique synthetic drug. Its production 
requires no specialized skills, training, and its various 
recipes are readily available. Its precursor chemicals have 
historically been able to obtain and inexpensive to purchase.
    The diversion of controlled pharmaceutical substances also 
continues to be a significant threat. Controlled pharmaceutical 
substances are diverted through several means, including 
illegal prescribing, theft, robbery, prescription forgery, 
doctor shopping, and, of course, the Internet.
    The manufacture and use of methamphetamine is not a problem 
confined to the United States but has become prevalent in many 
regions of the world. The DEA through our law enforcement 
partnerships across the country and around the world has 
initiated successful investigations that have disrupted and 
dismantled significant methamphetamine trafficking 
organizations, particularly those targeting the United States. 
We have also taken an active role in fighting diversion of 
ephedrine and pseudoephedrine through both enforcement 
operations and international agreements. These initiatives 
resulted in substantial reduction in the amount of precursor 
chemicals entering the United States, but we have more to do 
internationally.
    DEA has a key role toward achieving the administration's 
goals set forth in this strategy. Chief among our tasks would 
be the full implementation and enforcement of the Combat 
Methamphetamine Epidemic Act of 2005. Other domestic 
initiatives will include a national listing on the DEA Web site 
of the addresses of properties in which methamphetamine labs or 
chemical dump sites have been found. In addition, construction 
for a new clandestine lab training facility at the DEA academy 
will begin in the fall of 2006.
    A key element of the strategy for combating methamphetamine 
is international cooperation, particularly in the area of 
precursor chemical control. Already, DEA and DOJ have 
facilitated and played a leadership role in several recent 
meetings of the international community. These meetings, such 
as the May 2006 National Methamphetamine Chemical Initiative 
Strategy Conference where the Attorney General announced 
several new anti-methamphetamine initiatives, have helped 
increase awareness around the world and resulted in agreements 
to monitor and track key precursor chemicals. Several nations, 
most notably Mexico, also have taken independent steps to 
control methamphetamine precursors.
    Internet diversion of pharmaceutical controlled substances 
is especially difficult to investigate and overcome. Internet-
based drug traffickers often mask their activities as those of 
legitimate on-line pharmacies. DEA's approach to pharmaceutical 
controlled substance abuse problems strives to balance two 
general policy concerns: Reducing the prescription drug abuse 
while not making the lawful acquisition of prescription drugs 
unduly cumbersome.
    DEA is joined by the interagency community and responsible 
private sector entities in its effort to prevent pharmaceutical 
controlled drug abuse and diversion by collaborating with 
Internet service providers and companies, credit card and 
financial service companies, express mail carriers to target 
Internet-based drug traffickers, DEA is at the cutting edge of 
on-line drug investigations.
    Although recent DEA operations are indicative of our 
ability to target the largest and most dangerous organizations, 
additional tools are needed. More can be done to eliminate Web 
sites that have telltale signs of their illicit nature, and 
steps can be taken to ensure that the legitimate doctor-patient 
relationship includes a face-to-face consultation.
    DEA is fully committed in its role to meet the ambitious 
goals set forth in the Synthetic Drug Control Strategy.
    Chairman Souder, Ranking Member Cummings, and Congresswoman 
Watson, I thank you again for the opportunity to testify, and 
will be happy to address any questions you may have. Thank you.
    Mr. Souder. Thank you very much.
    [The prepared statement of Mr. Rannazzissi follows:]

    [GRAPHIC] [TIFF OMITTED] T3394.020
    
    [GRAPHIC] [TIFF OMITTED] T3394.021
    
    [GRAPHIC] [TIFF OMITTED] T3394.022
    
    [GRAPHIC] [TIFF OMITTED] T3394.023
    
    [GRAPHIC] [TIFF OMITTED] T3394.024
    
    [GRAPHIC] [TIFF OMITTED] T3394.025
    
    [GRAPHIC] [TIFF OMITTED] T3394.026
    
    [GRAPHIC] [TIFF OMITTED] T3394.027
    
    [GRAPHIC] [TIFF OMITTED] T3394.028
    
    [GRAPHIC] [TIFF OMITTED] T3394.029
    
    [GRAPHIC] [TIFF OMITTED] T3394.030
    
    [GRAPHIC] [TIFF OMITTED] T3394.031
    
    [GRAPHIC] [TIFF OMITTED] T3394.032
    
    Mr. Souder. Dr. Young.

                   STATEMENT OF DR. DON YOUNG

    Dr. Young. Good morning, Mr. Chairman, members of the 
subcommittee. I appreciate the opportunity to discuss the 
efforts of the Department of Health and Human Services in 
support of the administration's Synthetic Drug Control Strategy 
focused on methamphetamine and prescription drug abuse.
    I am pleased to be here to talk about the HHS contribution 
to the administration's coordinated strategy for combating the 
problems of methamphetamine abuse. The synthetic strategy was 
released June 1st this year, although HHS has been working with 
its Federal partners to develop the national synthetic drug's 
action plan since October 2004.
    The synthetic's strategy sets a goal of reducing 
methamphetamine abuse over 3 years, a 15 percent reduction in 
the abuse or nonmedical use of prescription drugs over 3 years, 
and a 25 percent reduction in domestic methamphetamine 
laboratory seizures over 3 years. Much of the synthetic 
strategy is devoted to methamphetamine abuse. Methamphetamine 
is associated with serious health conditions, including memory 
loss, aggression, psychotic behavior, and potential heart and 
brain damage.
    HHS is engaged on these issues through a number of its 
agencies. HHS brings a wide array of resources to this issue. 
The HHS fiscal year 2007 budget provides $41.6 million for HHS 
methamphetamine targeted treatment and prevention research and 
a dedicated $25 million for methamphetamine treatment services 
within the access to recovery program. The access to recovery 
program is a voucher-based program intended to expand consumer 
choice and access to effective substance abuse treatment and 
recovery support services. The Substance Abuse and Mental 
Health Services Administration and the Administration for 
Children and Families work together to provide training, 
technical assistance, information, and resources to local, 
State, and tribal agencies to improve systems and practice for 
families with substance abuse use disorders who are involved in 
the child welfare and family judicial systems.
    One of the key components of meth is a commonly used 
pharmaceutical product, pseudoephedrine. Pharmaceutical 
products containing pseudoephedrine, either alone or in 
combination with other drugs, are used extensively by the 
general public to treat the symptoms of upper respiratory tract 
infections and allergic rhinitis.
    In carrying out our strategy to end methamphetamine abuse, 
we must balance the legitimate health needs of consumers to 
access to medicines against the urgent needs of law enforcement 
to confront a serious drug problem. We believe that the U.S.A. 
Patriot Act recently enacted and signed into law achieves this 
balance. It restricts the OTC sales of pseudoephedrine, 
ephedrine, and phenylpropanolamine, but also enables 
individuals to buy sufficient quantities for legitimate medical 
use. By working together in a coordinated effective way, we can 
be successful in achieving the goals set out by the synthetic's 
strategy. By drawing on the resources my colleagues and I are 
discussing with you today, we can be successful. Thank you for 
your time. And I would be pleased to respond to any questions.
    [The prepared statement of Dr. Young follows:]

    [GRAPHIC] [TIFF OMITTED] T3394.033
    
    [GRAPHIC] [TIFF OMITTED] T3394.034
    
    [GRAPHIC] [TIFF OMITTED] T3394.035
    
    [GRAPHIC] [TIFF OMITTED] T3394.036
    
    [GRAPHIC] [TIFF OMITTED] T3394.037
    
    Mr. Souder. I thank each of you for your testimony. And the 
button on the microphones are counter-intuitive. If it is up, 
it is on; if it is down, it is not.
    Let me make a couple of additional comments with my 
frustration. That, Mr. Burns, I hope ONDCP understood a very 
subtle message that Congress gave this week. And this hearing 
today is going to focus mostly on meth, most likely. You will 
see this committee increasingly move as we hopefully start to 
turn some corner on meth, at least get an aggressive strategy 
in every agency more toward over-the-counter drugs which 
clearly is a steady and increasing problem in the United 
States. We have had multiple hearings on OxyContin over the 
years, but we focused on meth in this cycle because at the 
local level, that is what we are hearing constantly. The idea 
to battle meth didn't start in Congress, even though this 
committee held its first hearings probably 7 years ago on this. 
It is being something that is demanded at the grassroots level. 
All you have to do is turn on your TV set in any market in 
almost every single State now, but certainly in about 40 
States, it is still coming in to the east coast, and that will 
be the major story, and that demand came on the politicians.
    I have been a strong supporter of the National Ad Campaign. 
Last, there has been a concern that the National Ad Campaign 
has been dropping in its funding by the director and by others. 
I said that if the National Ad Campaign started to address some 
of it, I have not opposed the marijuana initiative, but some of 
it focused on meth, we could sustain the support in Congress. 
We brought a resolution to the floor last year and it was 
increased by $30 million over the President's request if it was 
used on meth. That was ignored. This week, the Appropriations 
Committee reduced it yet further to where the National Ad 
Campaign is at risk. And as you full well know, in the Senate, 
they have not been as enthusiastic with the ad campaign as the 
House. It got reduced to $100 million. The administration came 
over and asked multiple Members of Congress to introduce it. 
They talked to our leadership. Not a single Member of Congress 
was willing to go to the floor to defend the position of the 
National Ad Campaign. Not one single Member of either party 
because of the lack of responsiveness of this administration on 
meth. And if that message doesn't permeate, there will be no 
National Ad Campaign. That is just, that is not a threat, it is 
a promise. That there has to be more responsiveness and an 
understanding of what is happening.
    Second, this is the second year in a row where you have 
come in proposing to zero out what is the primary funding of 
our drug task forces around the United States on meth. You work 
with State and local law enforcement, and you know the 
intensity of this. On the HIDTA question, this year it wasn't a 
zeroing out of the HIDTA. I have asked repeatedly, what don't 
you like about HIDTAs? Which one? And the only answer I have 
gotten steadily is: The proliferation of HIDTAs has occurred in 
the United States denigrating the original mission of the 
HIDTAs, which was high intensity. Well, what is the 
proliferation of the HIDTAs? Where are those proliferations? 
Well, that would be the Missouri HIDTA, which is a meth HIDTA; 
that would be in Iowa, which is a meth HIDTA; that would be the 
Rocky Mountain HIDTA, which is a meth HIDTA; that would be the 
Dallas HIDTA, which is focused more and more on meth. In other 
words, the administration's proposal indirectly, though it has 
never said directly, it has said to proliferation, all of the 
new HIDTAs were meth HIDTAs.
    So that to come forward with the strategy at the same time 
while you are proposing to gut many of the things that are in 
it, we just don't see this reconciliation.
    Now, let me be honest. We were looking for a few more 
specific things than today in your testimony what you chose to 
highlight was the endangered children program, which is a great 
program and should be expanded, and conferences. We have meth 
conferences going through our ears in the United States. Any 
person who is in the field who can't go to a meth conference 
has--I don't know where they have been. There are conferences 
all over the place. What we need are specifics. Quite frankly, 
the DEA presentation today--and DEA's been the only agency that 
has been very aggressive on this, as opposed to somewhat 
aggressive on this--had more details than the plan, which is 
astounding.
    Here we wait and wait and wait, and we get a plan, and the 
testimony that comes forward from one of the agencies is more 
detailed with specifics and somehow to address how we are going 
to deal with this on the Internet.
    We all know we are going to control the mom and pop labs, 
no thanks to the Federal Government. The State governments are 
already doing it, and now we are going to finish the rest of 
the States by October 1st. We are going to reduce the mom and 
pop labs. You are going to reach your reduction figures, which 
are--they are going to be done because of what other people 
already did. Not necessarily on synthetic drugs overall. Over-
the-counter is going to be tougher. But the mom-and-pop labs 
are going to reach that. But it is going to move to the 
Internet. There were a number of things in DEA testimony to try 
to address that.
    Now, let me ask Mr. Dhillon, and I am not holding you 
accountable, because you are new in the post. And we are glad 
to have you there, and we have worked together on the Homeland 
Security Committee, of which I am a senior member. Why would 
the Department of Homeland Security not have been more 
mentioned or--how do you see this integrated? For example, I am 
making some suggestion to you and I would like to hear some of 
your comments back.
    DEA, Mr. Rannazzissi made some comments about how they are 
looking at this. Clearly, one of the things, since you are both 
in charge at Homeland Security of ICE, you are in charge of 
Coast Guard, and you are in charge of CBP, three of the major 
agencies with this; DEA would be a fourth that at the Federal 
level provides actual ground troops. Is there an awareness in 
the agency? Do you see an awareness of the agency to look at 
the data that you are picking up? For example, you are going to 
have the data of whether meth from Mexico is coming across from 
Laredo or the west. Are you going to look at that data and work 
directly with DEA or the intelligence agencies? Is ICE going to 
connect up with DEA? How do you propose to do that? Is Coast 
Guard going to do that? Are you going to look at--because as we 
shut down the mom-and-mop labs, both the Internet and the 
border are going to become the places where crystal meth is 
coming in behind.
    We see that in Oregon already, we see it in Oklahoma. The 
States that did the pseudoephedrine control laws have already 
seen the switch to crystal meth. It is coming your way. It is 
coming through all of your zone. Are you going to try to 
separate out the data here? Are you going to work with it? Are 
you going to work with particular strategies? Are your agents? 
I am less concerned about a national conference than basically 
making sure that CBP and ICE understand that the meth pressure 
is going to come at yours, and you are watching for that and 
the patterns.
    Mr. Dhillon. Chairman Souder, I believe that it is my 
responsibility as the Director of the Office Counter-Narcotics 
Enforcement to obtain that information, that data that you are 
talking about, and to ensure that the counter-narcotics-related 
components within the Department have that data and are 
appropriately focused on the meth threat.
    As you have pointed out, and I think as everyone has 
acknowledged, methamphetamine is now largely moving across the 
borders, which makes it a Department of Homeland Security issue 
and, as far as I am concerned, a Department of Homeland 
Security priority in the counter-narcotics realm.
    So the answer to your question is, yes, we will be looking 
at the data and we will be ensuring that the counter-narcotics-
related components that you have mentioned have that data, and 
will be emphasizing the importance of including methamphetamine 
interdiction in the overall counter-narcotics strategy.
    Mr. Souder. Dr. Young, one of my concerns, and I have 
talked to Director Curry about this as well, is that 
methamphetamine--one of the pattern differences is it tends to 
be, less so for crystal meth, but where it has been so far in 
the mom-and-pop labs, tends to be in the most rural areas of 
America, that where the drug treatment programs are, in fact, 
the least sophisticated.
    Much of the type of approaches that HHS recommends are 
fairly complicated. And when Director Curry came into my 
district, the only group that was implementing it was in Fort 
Wayne where they have only had basically three or four cases of 
meth. One of the outlying mid-sized cities had been at a 
conference where that subject was discussed, and the rural area 
that was hardest hit with meth had the least, the most 
underpaid, the just out of school trainee who hadn't even heard 
of the concept.
    Is there an understanding in HHS of these two variables? 
One is, is that this, the one type of phenomena tends to be a 
rural phenomena often coming out of where there are national 
forest areas or more rural places because of the smell of labs, 
they hide out there.
    And then the second, as the crystal meth comes in, you have 
a different type of pressure, and that may become a more urban 
pressure although some of the rural areas may pick it up. Is 
there that type of sophistication and analysis internally?
    And then, second, the strategy suggested that there was a 
difference of opinion suggesting that meth treatment does work, 
which there are a lot of conflicting opinions on how and how 
well. But what are you doing to overcome that and to target it? 
Are you saying that the same treatment programs work for meth 
that work elsewhere? Are they particular treatment programs 
with variations? And could you address some of those type of 
questions?
    Dr. Young. I did not. I would imagine that Mr. Curry gave 
you a response to that as well.
    The whole problem of health care delivery and substance 
abuse treatment as a subset of health care delivery in rural 
areas is an extremely difficult one. It is one both of 
resources, as you point out, and how to get resources in 
adequate amounts, but it is also manpower and skilled people, 
which you pointed out. You can attempt to deal with some of 
that through other kind of social programs, transportation 
support, but that has limited value as well.
    So I think, yes, there is a realization about that in the 
Department. That realization goes far beyond simply 
methamphetamines to other drugs but to other health care 
services in rural areas, very different set of problems than in 
the inner city, although the inner city has problems as well. 
They are just a very different kind. So, yes, I think we are 
aware of it.
    On the issue of treatment, it is very clear treatment does 
work. Treatment is very difficult. It is very difficult for any 
substance abuse problem, and that includes methamphetamines. 
But when one looks at treatment one also has to look at 
treatment in the context of the individual, the family, their 
life-style, where they live. If you treat an individual and 
they go back to the environment that they were living in prior 
to treatment, their chance of recidivism is much greater. This 
has to be an integrated approach.
    As I mentioned in my testimony, the problem that ACF is 
dealing with and families, this is a family problem, an 
individual problem, a medical problem, a social problem. It has 
to all be approached together. It cannot be approached from a 
single facet.
    Mr. Souder. Thank you.
    Mr. Cummings.
    Mr. Cummings. I want to pick up where we left off there. 
One of the things about meth is that it has a very traumatic 
direct effect upon families and particularly children. Can you 
tell me about any new programs coming up that will help these 
children?
    Let me tell you where I am going. I have lived long enough 
and seen enough in Baltimore to now see generational cycles of 
drug use. As a lawyer prior to coming to Congress, I had an 
opportunity to represent the children and sometimes the 
grandchildren of people that I represented when I first came to 
practice with regard to drug crime. So you see these 
generational cycles. So I am wondering what are we doing to try 
to stop--and any of you who have anything else to add, I am 
curious--to stop the generational cycles of this continuing to 
go on.
    Dr. Young. Your question is direct to the prevention side 
or to the treatment side or both?
    Mr. Cummings. You can talk about--I am talking about when 
these kids are found in these houses, these labs, there are a 
lot of issues; foster care problems arise. As we have traveled 
across the country, so many local officials have said that we 
have been overburdened with regard to kid issues.
    I am just wondering--you can talk about it any kind of way 
you want. I am trying to figure out--we have a major agency 
here that deals with health; and I am just wondering exactly 
what you all are doing about it, if anything.
    Dr. Young. There are various parts of the Department, but 
in the issue of the children it would be the Agency for 
Children and Families that are involved. Part of what we are 
doing is making sure we are coordinating across the new 
research, the research which is showing more treatment patterns 
and what works best with the service delivery. So one is the 
integration and the coordination and the sharing of information 
from those people who are doing research on what works, whether 
it is prevention or treatment, and those that are running the 
programs. Much of that is done with grants or it can be done 
through the access to recovery program.
    There will be different approaches taken in different 
communities. There is no one single one way to do it or one 
single program to do it. So there is discretion given to the 
communities in how they carry out the individual prevention or 
treatment programs and education. But under all circumstances, 
though, we do everything we can to bring the newest state of 
the knowledge to those folks.
    Mr. Cummings. Mr. Burns, I want to go to the Synthetic Drug 
Control Strategy.
    Dr. Young, by the way, I will get back to you. I think I 
want a little bit more information. Perhaps you can do it in 
writing, but I was not satisfied with your answer. But let's go 
on. We have a limited amount of time.
    Can you explain to me, Mr. Burns, exactly--and I know we 
are going to be talking later at another hearing about 
treatment, but help me understand how only three and a half 
pages of the Synthetic Drug Control Strategy was devoted to 
prevention and treatment. What happened?
    Mr. Burns. Well, Mr. Cummings, the strategy is balanced. 
There are no monumental breakthroughs with respect to treatment 
protocol.
    I think one of the things that we all agree upon now, you 
mentioned in your opening statement that people suffering from 
the disease of addiction to methamphetamines can be treated. 
There are successes every day across the country. The intent of 
the strategy was not to equal the pages so that 11 pages were 
for treatment and prevention, 11 for supply reduction. It was a 
strategy that is comprehensive with respect to what we are 
facing today.
    And in that respect let me say this----
    Mr. Cummings. Since we have all this balance here, why 
don't you just specifically tell me what the prevention and 
treatment strategies are? Go ahead. I am listening.
    You said--I said three and a half pages. You said, well, 
those three and a half pages out of 80 something is balanced. 
Fine. Tell me what they are. What do we have new here?
    The people who are looking at this right now who are 
sitting in their rural homes and the mayors and city council 
people are trying to figure out, to have some hope that they 
can deal with a problem that is devastating their communities, 
and I have one of the top drug people in the Nation, just a 
wonderful expert, and they are looking to hear from your lips. 
They want to get past the three and a half pages. So let's talk 
about the balance. Talk to me.
    Mr. Burns. The response would be a $12.7 billion request 
from this President and this administration, which is $80 
million more than Congress enacted last year. So that is a 
start.
    The second thing I would say----
    Mr. Souder. On meth?
    Mr. Burns. Overall Federal drug control budget. We have to 
start somewhere. We have to start with the premise that the 
commitment from this administration against illicit drug use in 
this country is larger than it has ever been. With respect to 
treatment, some $4.5 billion requested by the President in 
2007.
    Let me address the question about mayors and people sitting 
in cities. This administration and the Director of the Office 
of National Drug Control Policy for 2 years now has sent me and 
other deputies and a large amount of staff to 25 plus major 
cities in this country, including Baltimore, including 
Sacramento, including Indianapolis; and we have sat down with 
mayors and chiefs of staffs and police chiefs and treatment and 
prevention folks. We have talked about, do you have community 
coalitions? Do you have drug courts? What is happening with 
Byrne grant money? Is there a balance in your particular city?
    For the first time, we have had a national discussion about 
how Federal, State and local moneys are applied against a 
threat in a particular city.
    Mr. Cummings. Let's put a pin right in that. When you meet 
with all these wonderful elected officials and community 
people, do they tell you that the HIDTA and COPS grants should 
be reduced, the elimination of the Byrne grants? I mean, did 
they tell you that?
    Mr. Burns. I didn't hear that.
    Mr. Cummings. You didn't hear that.
    Mr. Burns. They did not tell us that they were in favor of 
reducing Byrne grants or HIDTA.
    Mr. Cummings. Did you ask them how they felt about it? 
These are the people who are the front line. These are the 
people that we have to face. These are the people who are 
suffering and trying to keep their communities together.
    And I applaud you. I really do. I think it is wonderful 
that you went to the 25 areas. I think that is great. The 
question is, it is not the visit. It is what is happening 
during the visit and what kind of interaction there is.
    Because, as the chairman has said, there are people who are 
crying out, and they are asking us to do something, and we are 
trying to get things done. We want to use the taxpayers' 
dollars effectively and efficiently.
    You are telling me you are doing these wonderful tours, but 
I am wondering, No. 1, are you presenting to them--saying to 
them this is what we are proposing to do and this is why we 
think it is going to work. Then I want to know what they are 
saying back to you, and I can guess the reason why you are not 
hearing this is because a lot of them are very much opposed to 
this stuff.
    Mr. Burns. Let me tell you one thing that they are all 
saying----
    Mr. Cummings. Let me ask you one more question. Then I want 
to hear your answer. It is one thing for us to--for all of us 
to sit in nice offices and whatever and feel real good about 
what we are doing, read nice reports and put them on the shelf 
or whatever. It is another thing for that person who is out 
there dealing with this every day.
    Some of the testimony that we heard, as a matter of fact in 
Congressman Souder's district, if I remember correctly, it was 
just so alarming and the struggles these people are having. I 
just want to know, how do we take your efforts out there, going 
out and doing your tour, and combine them and bring back 
something to your agency and the President so that we can be 
presented with something that is more reflective of what we are 
hearing, so that we can do for folks who are on the front line. 
I am not talking about somebody in an ivory tower. I am talking 
about somebody who is dealing with this every day. Help me with 
that.
    Mr. Burns. You are looking at the face of the 
administration of a person that deals with this every day. I 
don't sit in a nice office. I just spent the last few days in 
Chicago meeting with people from all over the country dealing 
with fentanyl. I've been to the chairman's district twice. We 
talked about drug-endangered children.
    Mr. Cummings. Then why are we----
    Mr. Burns. Let me just finish. I met with his prosecutor 
and the treatment officials, and we came up with a strategy for 
that particular part of the country. And I do it every day from 
California to Maine, Congressman--that is what the Office of 
National Drug Control Policy does--to bring forth a balanced 
strategy of prevention, treatment and law enforcement.
    We may disagree on the numbers, we may disagree on the 
outcomes, but I can tell you in a lot of cities what they say 
is, thank God, there has been a 19.1 percent reduction in drug 
use among our young people. Thank God that methamphetamine use, 
as measured by the tool that we have used for a long time, 
shows a 30 percent plus reduction in methamphetamines among 
8th, 10th and 12th graders.
    Is there more work to do? Absolutely.
    Mr. Cummings. Did they say thank you for trying to cut our 
HIDTA program and to cut our COPS program? Did they say thank 
you for that, too?
    Mr. Burns. I think I answered that.
    Mr. Cummings. The answer is, no, is that right?
    Mr. Burns. That's correct.
    Mr. Souder. My frustration--and I'm sorry Mr. Burns--I want 
to say Scott, but Mr. Burns, officially--I really appreciate 
that you came to my district. When you say we came up with a 
strategy, that is not the way local law enforcement would view 
what would happen in my district. They were already working on 
it. They don't view that ONDCP or that the meetings we held, 
which were good, came up with a strategy for meth. That was a 
slight overexaggeration of the meetings that we held.
    And, second, when Mr. Cummings asked you what you were 
proposing to do on meth treatment, you didn't say anything. You 
had no answer. You filibustered for a while, but you had no 
answer.
    I think a better representation of what ONDCP's position 
has been--not necessarily yours personally--was to say we don't 
like to do strategies on specific drugs which you had in the 
official testimony and because of that, it is very hard to 
answer.
    In a couple of weeks, we will be holding a hearing in 
Montana. I venture to say that I will be able to ask every 
single witness a question like Mr. Cummings just said, what are 
you doing on treatment, and they will give a specific answer. 
There a businessman went in to Montana who wasn't from Montana. 
We're trying to figure out what impact it's had and all those 
type of questions.
    But bottom line is they're going to give specifics. They're 
going to say, we put money in an ad campaign, we did this on 
treatment, we're doing this in the schools, we're having kids 
do pledges, this is our meth strategy. That is what we are 
looking for here, not some compilation of what Congress has 
passed and what State and locals are going to do, which, by the 
way, the administration proposed to cut, and that is part of 
our frustration.
    Mr. Burns. Can I respond to that briefly? Because you 
brought up the National Youth Media Campaign a couple of times.
    Director Walters launched methamphetamine ads. As you know, 
they are targeted toward 23 major markets in this country. I 
think that the dialog that you and other members of this 
subcommittee had with Director Walters has been positive, and 
those ads are going forward today.
    Mr. Souder. What was the total amount?
    Mr. Burns. The amount of the money? I do not know.
    Mr. Souder. I think it is less than 5 percent.
    I also know that Congressman Wolf designated that in an 
appropriations bill. It was not something that was necessarily 
voluntarily done, in that it was opposed when he designated it.
    That is part of our frustration, that when Congress takes 
an action and then the administration does the minimalist 
strategy with it and then claims like it is a big meth 
initiative, we are not very impressed.
    Mr. Burns. Can I just say, as you know, Mr. Chairman, the 
National Youth Media Campaign is directed toward young people, 
12 to 17 years old. Methamphetamine, the initiation age is 22. 
That's been part of the discussion that we have had with 
respect to how the media campaign is focused and directed. Our 
intent is to prevent young people from ever starting. We know 
if we can get a kid to 18 or 20 there is a 98 percent chance 
they will never be addicted to any drug. That's the policy and 
that's the strategy.
    Mr. Souder. Ms. Watson.
    Ms. Watson. From my own experience in Sacramento, I looked 
for years for a program; and I think you just hit the real 
concern, is that possibly there was something for teenagers but 
this niece of mine died at age 22. I could not find a program 
that would take her.
    Dr. Young said that you cannot put them back into the same 
community, to the same household where the problem existed. So 
you want to have somewhere, maybe a transition, after they got 
out of the hospital. And she was hospitalized almost every 
other month. After she got out of the hospital, she had to come 
back home. The hospital would release her, put her in a taxi 
cab and put her on her mother's doorstep.
    I would go from Washington, DC, to Sacramento. I represent 
Los Angeles. I live in Los Angeles, but I was involved as often 
as I could be.
    What is missing out in the community are programs, halfway 
houses, places where a person who has just been emancipated, 18 
years old but still young, can go for treatment and care and 
being taken out of the community. I want you to know in the 
Sacramento area meth is readily available. They bring it to 
you. You do not have to go to them. They bring it to you.
    What I tried to do was to get her in a place. There were 
none. I had to get her in something called Teen Challenge. She 
was to go in on that Monday. She died Monday morning at 7:13 
a.m. at age 22. I could not even get the hospitals to 
understand what we needed. They say, she's been here and there 
is nothing else we can do. Send her home. The last thing she 
said to me, 2 weeks before she died, Aunt Diane, I need help. I 
couldn't find the program. Teen Challenge, they take them up to 
24, thank God. So I thought I could get her in there for 2 
years at least. But there really aren't programs.
    My question is, is there a way--and I have been reading 
through your report, and I appreciate the statistics that I 
find in here. But is there some way we can learn about programs 
in our local community that will take young people who have 
been emancipated, 18 and beyond?
    We can go to the schools, and we can talk about it, but 
there really are not any real effective programs of prevention 
in schools. Because the health programs are the ones that are--
usually have very low attendance, and we cut down on the staff 
and the faculty that would be providing the information. So 
what we need are community based kinds of walk-in programs if 
we are really going to do the job, because I think all the 
literature shows that meth use is done in the suburbs and the 
rural areas.
    So I would like to see if you go to Sacramento, if you go 
to other parts of the country and you've talked to the medical 
community, law enforcement community, social services 
community, programs that they provide that we can put people in 
who are in great need but might not have the resources 
personally to deal with their problem. That would be very, very 
helpful. Then I think we could really feel the outreach.
    I think it is out of control in the Sacramento area. I do 
not necessarily have that problem in my district. I have a 
crack cocaine problem in the central Los Angeles district, but 
methamphetamines, the use attacks the vital organs and will 
result in death. How can we stop it? What programs are 
available? Can you get information?
    You can start with me with the Sacramento area. At least I 
can help somebody else in that area where I lived for 20 years, 
help families and so on. So if you could provide that 
information, what programs are available and what is the 
criteria for eligibility for those programs and what are the 
age spans, that would be very helpful to us. And I am sure in 
Baltimore it would be helpful and Chicago and other areas where 
the problem is increasing--not decreasing, increasing.
    Mr. Burns. Let me just say this, and part of the challenge 
that we face nationally--if we have 19.1 million people using 
illegal drugs, we know about 7 million meet the definition of 
clinical addiction and about 2 million are currently in 
treatment. Part of the challenge we face nationally is getting 
the 5 million that are addicted to, No. 1, understand that they 
have a problem, because they don't think they do; and, No. 2, 
once that realization comes about, whether it is a crash of an 
automobile or an arrest at a nightclub when somebody is charged 
with a criminal offense, is then getting them into treatment.
    I am sorry for your loss, and I mean that sincerely.
    Ms. Watson. Let me just interrupt you, because I have 
another committee I must go to, but we understand all of that. 
I am a former school psychologist in my other life. I 
understand that. Where can we go and get the kind of 
treatment--a person between these ages 18 and, say, 35, where 
can we go? What is available? Is there a directory? How do we 
access that information? How do we make the connection?
    I could have called and said to her mother, take her here. 
I got to the social worker, and they looked all over the 
country, and there was nothing, there was nothing.
    So your going to Sacramento, I don't know what it resulted 
in, but I can tell you what--and this is just recently. She 
died May 29th. You see, there was nothing except Teen 
Challenge, and they stretched it to let me get her in there.
    Mr. Burns. Well, I will provide for you the information 
with respect to treatment that is available in Sacramento area.
    Ms. Watson. That's what I need.
    Mr. Burns. I just wanted to finish my point. One of the 
things that we have funded and the national drug control policy 
is doing--and I give this to you by way of example following my 
last point of getting people into treatment--is funding what's 
called a screening or brief intervention program. We have 
professionals in emergency rooms and in division of family 
services offices trying to identify those people that are 
suffering from addiction and then get them into treatment. So 
there is a national effort to help those that are undergoing 
this condition.
    Ms. Watson. Can you supply--and I know I have been very 
personal with this, but I am sure my colleagues have the same 
needs, because in our offices walks every kind of issue 
imaginable. Is there a directory that is being developed that 
will put it in categories where people can go, numbers to call?
    Because I went to social services in the county, and I 
could not find anything. So I went to a private organization, 
and that is where I found Teen Challenge. So if you could 
supply--and you might want to work on it nationally, wherever, 
you know, we have programs under the control of your program 
and Department. If you could supply it to all of us it would be 
a tremendous help. We will do the leg work, don't mind doing 
that, but we need to know on the other end of that there are 
those resources.
    Mr. Burns. Thank you.
    Ms. Watson. Thank you.
    Mr. Souder. We are going to be voting shortly, but I wanted 
to ask Dr. Young one question. We may have some additional 
written questions from each of us as well.
    But we had contacted FDA about what you were doing on 
pseudoephedrine and precursor chemicals some time ago and then 
received a letter back saying that was DEA that is in charge of 
that. But in your testimony you stated that FDA was co-chair 
with DEA. You said foreign pseudoephedrine co-chaired by FDA 
and DOJ; online diversion co-chaired by FDA and DEA. When we 
contacted you, you said, oh, we're not involved in this. This 
is DEA. What are you doing in those areas?
    Dr. Young. I will have to get back to you with more 
information for the record. So I will gather that together and 
get back to you for the record.
    Mr. Souder. OK, I would appreciate that. Because we have 
this outstanding letter from a couple of months ago, and we 
just heard back before the hearing that we don't do that. But 
your testimony says you do, and we would like that reconciled.
    Dr. Young. I will get back to you, sir.
    Mr. Souder. Thank you very much.
    I want to thank each of you for what I know is hard work. I 
know the Department of Homeland Security will be continuing to 
track in your position as we see this become more and more of a 
border issue and an issue related to how it is getting into the 
United States. Your agency is going to be critical with that.
    As we watch this move on line, I am sure a lot of the 
follow through, it is going to move and methamphetamine is 
going to start to behave like crack, marijuana, heroin and 
other types of drugs as it moves into these underground 
networks, and we will be working with you over time.
    The treatment question is coming up in another hearing; and 
we will continue to work with Director Curry as well as you, 
Dr. Young. I look forward to your work.
    Mr. Burns, continue to go out and talk with the State and 
locals. We hope the administration will hear a little bit more 
of what they are saying, particularly in the budget request.
    With that, we will dismiss each of you. Thank you for 
coming.
    Could the second panel come forward?
    The second panel is the Honorable Eric Coleman, Oakland 
County commissioner in Michigan, a Detroit suburb, representing 
the National Association of Counties; Dr. Lewis Gallant, 
executive director, National Association of State Alcohol and 
Drug Abuse Directors; Ms. Sherry Green, the executive director 
of the National Alliance for Model State Drug Laws; Ms. Sue 
Thau, public policy consultant for the Community Anti-Drug 
Coalition of America; and Mr. Ron Brooks, president of the 
National Narcotics Officers' Associations' Coalition; director, 
Northern California Division HIDTA.
    As an oversight committee, it is our standard practice to 
swear in all witnesses.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative.
    We thank you for coming; and, Mr. Coleman, we will start 
with you.

   STATEMENTS OF ERIC COLEMAN, OAKLAND COUNTY COMMISSIONER, 
 NATIONAL ASSOCIATION OF COUNTIES; LEWIS E. GALLANT, EXECUTIVE 
DIRECTOR, NATIONAL ASSOCIATION OF STATE ALCOHOL AND DRUG ABUSE 
DIRECTORS; SHERRY GREEN, EXECUTIVE DIRECTOR, NATIONAL ALLIANCE 
FOR MODEL STATE DRUG LAWS; SUE THAU, PUBLIC POLICY CONSULTANT, 
  COMMUNITY ANTI-DRUG COALITIONS OF AMERICA; AND RON BROOKS, 
     PRESIDENT, NATIONAL NARCOTICS OFFICERS' ASSOCIATIONS' 
         COALITION, DIRECTOR, NORTHERN CALIFORNIA HIDTA

                   STATEMENT OF ERIC COLEMAN

    Mr. Coleman. Thank you, Chairman Souder, for allowing me to 
appear this morning on behalf of the National Association of 
Counties on this critical issue of methamphetamine abuse and 
the recent release of the Synthetic Drug Control Strategy.
    My name is Eric Coleman, and I am a county commissioner 
from Oakland County, MI. In addition, I am currently serving as 
first vice president of the National Association of Counties. 
The National Association of Counties [NACo], is the only 
organization that represents county government. With over 2,000 
member counties we represent 85 percent of the Nation's 
population.
    Abuse of a methamphetamine or meth is a growing issue for 
counties across the Nation. It is consuming a greater share of 
county resources because of its devastating and addictive 
nature.
    In response to the administration's new Synthetic Drug 
Control Strategy, I would like to make two key points.
    First, NACo commends the administration for now recognizing 
the dangerous threat posed by methamphetamines and developing a 
synthetic drug strategy to deal with this threat. However, NACo 
believes that the State and local government and law 
enforcement should have been consulted during the development 
of this strategy.
    Second, NACo hopes that this strategy will translate into 
future budget requests for programs that are critical to fight 
methamphetamine abuse such as the Justice Assessment Grant 
program and the High Intensity Drug Trafficking Area program.
    To illustrate the severity of the meth crises, NACo 
commissioned four surveys on the impact to county governments. 
Very briefly, our results have found that meth is the top drug 
threat facing county sheriff departments, that meth is leading 
to the alarming number of child out-of-home placements, that 
meth is the top drug seen at emergency rooms, and that the need 
for meth treatment is growing. These statistics confirm that 
meth is a national crisis that requires national leadership and 
a comprehensive strategy to fight this epidemic.
    Consequently, we would like to commend the administration 
for recognizing the challenges of the meth crisis and putting 
forth a plan. However, a major weakness in this strategy is a 
lack of input from State and local governments and law 
enforcement. We hope that this disregard for State and local 
stakeholders can be remedied by the four inclusive meth summits 
that are planned for 2006.
    If we had been consulted, NACo would have told the 
administration that their timeline to address the environmental 
dangers of meth production and use is unacceptable. The 
administration's plan to release voluntary clean-up standards 
in January 2011, is far too late. NACo has been a champion of 
the House-passed Meth Remediation Act and hopes that the Senate 
will pass the bill soon. These guidelines are desperately 
needed to provide direction to State and local governments and 
property owners on how to clean up a former meth lab.
    Additionally, the strategy fails to mention the Substance 
Abuse Prevention and Treatment Block Grant, which amounts to 
about 40 percent of the total public funds spent on drug abuse 
prevention and treatment. NACo urges Congress to increase 
funding for this important program.
    In contrast, NACo views administration's commitment to 
tightened control on the distribution of bulk pseudoephedrine 
on the international level as a positive. As a proponent to the 
Combat Meth Epidemic Act, which you sponsored, Mr. Chairman, we 
applaud their players who fully implement the legislation. 
Also, NACo supports the development and training of additional 
Drug Endangered Children teams. These teams play a vital role 
in responding to the needs of children affected by meth.
    For this strategy to be an effective tool, the 
administration must commit additional resources to meth-related 
programs such as local enforcement, treatment and prevention. 
Programs such as JAG and HIDTA are critical to the local law 
enforcement's ability to tackle the meth crises. They have 
proven to be effective, and we urge Congress to reject the 
administration's budget proposal on these programs. Without a 
change in future budget requests for meth-related programs, 
this strategy will be nothing more than a government document 
sitting on a shelf.
    In conclusion, I would like to thank you for the 
opportunity to appear before you today on behalf of NACo. We 
will be conducting further surveys on meth abuse and look 
forward to reporting our findings and working with you in 
resolving the meth crisis in this country. Thank you, and I 
will be happy to answer any questions you might have.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Coleman follows:]

    [GRAPHIC] [TIFF OMITTED] T3394.038
    
    [GRAPHIC] [TIFF OMITTED] T3394.039
    
    [GRAPHIC] [TIFF OMITTED] T3394.040
    
    [GRAPHIC] [TIFF OMITTED] T3394.041
    
    [GRAPHIC] [TIFF OMITTED] T3394.042
    
    [GRAPHIC] [TIFF OMITTED] T3394.043
    
    [GRAPHIC] [TIFF OMITTED] T3394.044
    
    [GRAPHIC] [TIFF OMITTED] T3394.045
    
    [GRAPHIC] [TIFF OMITTED] T3394.046
    
    [GRAPHIC] [TIFF OMITTED] T3394.047
    
    [GRAPHIC] [TIFF OMITTED] T3394.048
    
    [GRAPHIC] [TIFF OMITTED] T3394.049
    
    Mr. Souder. Dr. Gallant, it is good to have you back.

                 STATEMENT OF LEWIS E. GALLANT

    Mr. Gallant. Thank you, Mr. Chairman.
    Chairman Souder, Ranking Member Cummings, and Congresswoman 
Watson, I am Dr. Lewis Gallant, executive director of the 
National Association of State Alcohol and Drug Abuse Directors 
[NASADAD]. Thank you for your leadership and seeking input 
regarding the Synthetic Drug Control Strategy.
    NASADAD members have the front-line responsibility of 
managing our Nation's publicly funded substance abuse system. 
NASADAD's mission is to promote an effective and efficient 
substance abuse system.
    The Association's No. 1 message is this: People suffering 
from methamphetamine addiction, just like those suffering from 
addiction to other substances of abuse, can recover and do 
recover. This message of hope, grounded in science, proven 
through data and illustrated every day by countless Americans 
living in recovery serves as a linchpin of our work.
    Turning to the Synthetic Drug Control Strategy, the 
Association agrees with the administration's assessment that a 
comprehensive approach is needed in order to achieve success 
and that the manifestation of the synthetic drug problem in one 
State may be very different from that in another State. I offer 
to the committee five core recommendations: First, coordinate 
and collaborate with single State Authorities for Substance 
Abuse [SSAs]. The job of each SSA is to plan, implement and 
evaluate a comprehensive system of care.
    As a former State substance abuse director of Virginia, I 
know firsthand the benefits of promoting interagency 
coordination. From public safety to child care, transportation 
to employment, State addiction agencies need to be at the table 
when initiatives are developed and implemented.
    Second, expand access to treatment and treatment 
infrastructure. The No. 1 priority for NASADAD is the Substance 
Abuse Prevention and Treatment Block Grant, the foundation of 
our treatment system and a program not mentioned in the 
Synthetic Drug Control Strategy. Sample data from three States 
demonstrate the following for block grant support service for 
methamphetamine addiction: In Colorado, 80 percent of the 
methamphetamine users were abstinent at discharge in fiscal 
year 2003. A 2003 study found that 71.2 percent of 
methamphetamine users were abstinent 6 months after treatment, 
and in Tennessee over 65 percent of methamphetamine users were 
abstinent 6 months after treatment.
    NASADAD is aware of this committee's interest in improved 
data reporting. The Association is partnering with SAMHSA to 
make excellent progress in implementing the National Outcome 
Measures [NOMs], initiative. NOMs is designed to improve our 
system by emphasizing performance and accountability through 
data reporting on core sets of measures from all States, across 
all SAMHSA grants, including the SAPT Block Grant.
    Moving on to No. 3, enhanced prevention services and 
infrastructure. Once again, the SAPT Block Grant is vital, 
dedicating 20 percent of its funding, or $351 million, to 
support important prevention services that help keep our kids 
drug free.
    The Association strongly supports SAMHSA's Strategic 
Prevention Framework State Incentive Grants. However, we remain 
concerned with the administration's proposed cut of $11 million 
to the framework and extremely concerned with the proposal to 
eliminate altogether the Safe and Drug Free Schools State Grant 
Program.
    No. 4, solid support for research is vital, especially at 
the National Institute on Drug Abuse, so that we may build on 
the Institute's impressive portfolio.
    No. 5, enhance tools to share knowledge and best practices. 
The Addiction Technology Transfer Centers [ATTCs], and the 
Centers for the Application of Prevention Technologies [CAPTs], 
are regional centers funded by SAMHSA that help train our work 
force through distance learning and other mechanisms and share 
best practices to help ensure that we are implementing 
effective programs backed by the latest science.
    I have run out of time, but let me say that States across 
the country are moving forward to implement cutting-edge 
initiatives. We look forward to working with all stakeholders 
to continue the momentum and improve our collective work on 
methamphetamine and prescription drug abuse. I welcome any 
questions you might have.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Gallant follows:]

    [GRAPHIC] [TIFF OMITTED] T3394.050
    
    [GRAPHIC] [TIFF OMITTED] T3394.051
    
    [GRAPHIC] [TIFF OMITTED] T3394.052
    
    [GRAPHIC] [TIFF OMITTED] T3394.053
    
    [GRAPHIC] [TIFF OMITTED] T3394.054
    
    [GRAPHIC] [TIFF OMITTED] T3394.055
    
    [GRAPHIC] [TIFF OMITTED] T3394.056
    
    [GRAPHIC] [TIFF OMITTED] T3394.057
    
    [GRAPHIC] [TIFF OMITTED] T3394.058
    
    [GRAPHIC] [TIFF OMITTED] T3394.059
    
    [GRAPHIC] [TIFF OMITTED] T3394.060
    
    [GRAPHIC] [TIFF OMITTED] T3394.061
    
    [GRAPHIC] [TIFF OMITTED] T3394.062
    
    [GRAPHIC] [TIFF OMITTED] T3394.063
    
    [GRAPHIC] [TIFF OMITTED] T3394.064
    
    [GRAPHIC] [TIFF OMITTED] T3394.065
    
    [GRAPHIC] [TIFF OMITTED] T3394.066
    
    [GRAPHIC] [TIFF OMITTED] T3394.067
    
    [GRAPHIC] [TIFF OMITTED] T3394.068
    
    [GRAPHIC] [TIFF OMITTED] T3394.069
    
    [GRAPHIC] [TIFF OMITTED] T3394.070
    
    [GRAPHIC] [TIFF OMITTED] T3394.071
    
    [GRAPHIC] [TIFF OMITTED] T3394.072
    
    [GRAPHIC] [TIFF OMITTED] T3394.073
    
    [GRAPHIC] [TIFF OMITTED] T3394.074
    
    [GRAPHIC] [TIFF OMITTED] T3394.075
    
    [GRAPHIC] [TIFF OMITTED] T3394.076
    
    [GRAPHIC] [TIFF OMITTED] T3394.077
    
    [GRAPHIC] [TIFF OMITTED] T3394.078
    
    [GRAPHIC] [TIFF OMITTED] T3394.079
    
    [GRAPHIC] [TIFF OMITTED] T3394.080
    
    [GRAPHIC] [TIFF OMITTED] T3394.081
    
    [GRAPHIC] [TIFF OMITTED] T3394.082
    
    [GRAPHIC] [TIFF OMITTED] T3394.083
    
    [GRAPHIC] [TIFF OMITTED] T3394.084
    
    Mr. Souder. Ms. Green.

                   STATEMENT OF SHERRY GREEN

    Ms. Green. Chairman Souder, Ranking Member Cummings, 
Congresswoman Watson and staff, my name is Sherry Green, and I 
want to thank you very much for this opportunity on behalf of 
the National Alliance for Model State Drug Laws to testify 
regarding the recently released Synthetic Drug Control Strategy 
plan.
    I also want to take a few moments to thank Members of 
Congress, particularly this committee, for your strong role in 
working with State and locals on addressing synthetic drug 
issues.
    As you may know, my organization works with States to 
strengthen their drug and alcohol laws to create a more 
comprehensive, coordinated and efficient continuum of drug and 
alcohol services throughout the State. We work with State and 
local professionals on over 40 different drug and alcohol 
issues. Over the last 2 years, the overwhelming majority of 
requests that we have received for legislative and policy 
assistance are unquestionably on the issues of methamphetamine 
and prescription and drug addiction and diversion issues as 
well.
    Based on our legislative and policy work I offer the 
following comments on the strategy: We do appreciate the fact 
that the strategy actually recognizes the leadership role of 
States in enacting measures to reduce and restrict over-the-
counter purchases and sales of pseudoephedrine products. 
Despite this recognition, however, I see no description of an 
ongoing mechanism to gather the valuable input of these 
recognized leaders. So, apparently, under this strategy, it is 
OK for State and local leaders to play a strong leadership role 
when that means doing the hard work of creating and 
implementing solutions to drug and alcohol problems, but it 
does not mean that they should take a strong leadership role in 
developing a national strategy.
    Moreover, these recognized State and local leaders had to 
accomplish their gains in over-the-counter restrictions without 
the benefit of any comprehensive national and compiled data on 
methamphetamine, including the cost related to methamphetamines 
laboratories.
    State and locals have repeatedly requested the need and 
expressed the need for a national mechanism which would collect 
available methamphetamine information, organize it in a cogent 
manner, indicate the policy implications of that particular 
information and disseminate the information to State 
legislatures and other policymakers in a timely manner so they 
can use the information to make informed, educated decisions. 
Nothing in the strategy suggests a response to this need for 
comprehensive, coordinated data at a national level.
    Despite our great disappointment over this obvious gap, we 
are somewhat encouraged the strategy at least mentions 
treatment and prevention. However, the strategy right up front 
admits there is a common misperception about the fact that 
methamphetamine addiction can be treated. Based on our 
experience, the very people who hold that misperception are 
State legislators and other policymakers who are charged with 
making funding, policy and programmatic decisions. But I see 
nothing in the strategy that offers proactive options for 
actually correcting this perception.
    From our experience, the failure to actually aggressively 
address this gap in knowledge leads to a further misperception 
that there is no current understanding of what works in terms 
of treating methamphetamine addiction. So we have found in our 
work certain State and local policymakers who are actually more 
inclined to try to put scarce resources in their State toward 
researching what we already know, rather than providing direct 
services.
    So it is our sincere hope that our Federal colleagues will 
actually try to address these gaps that I have mentioned; and I 
would tell you that it is also our overall hope that, in terms 
of any strategy that the Federal Government puts together on 
synthetic drugs, that it becomes more than just 63 or 53 pages 
of lip service. We are not going to know if we are actually 
going to actualize that hope until we actually see a 
demonstrated commitment to turning those principles and ideas 
into action plans.
    In closing, I would just like to thank my colleagues on the 
panel for their generosity and their hard work at the State and 
local level, because they have allowed us to coordinate with 
them so that our work can actually reflect the valuable 
experience and expertise of their constituents. And of course 
at the appropriate time I am more than happy to answer any 
questions that you might have. Thank you.
    Mr. Souder. Thank you.
    [The prepared statement of Ms. Green follows:]

    [GRAPHIC] [TIFF OMITTED] T3394.085
    
    [GRAPHIC] [TIFF OMITTED] T3394.086
    
    [GRAPHIC] [TIFF OMITTED] T3394.087
    
    [GRAPHIC] [TIFF OMITTED] T3394.088
    
    [GRAPHIC] [TIFF OMITTED] T3394.089
    
    [GRAPHIC] [TIFF OMITTED] T3394.090
    
    [GRAPHIC] [TIFF OMITTED] T3394.091
    
    [GRAPHIC] [TIFF OMITTED] T3394.092
    
    [GRAPHIC] [TIFF OMITTED] T3394.093
    
    [GRAPHIC] [TIFF OMITTED] T3394.094
    
    [GRAPHIC] [TIFF OMITTED] T3394.095
    
    [GRAPHIC] [TIFF OMITTED] T3394.096
    
    [GRAPHIC] [TIFF OMITTED] T3394.097
    
    [GRAPHIC] [TIFF OMITTED] T3394.098
    
    [GRAPHIC] [TIFF OMITTED] T3394.099
    
    [GRAPHIC] [TIFF OMITTED] T3394.100
    
    [GRAPHIC] [TIFF OMITTED] T3394.101
    
    [GRAPHIC] [TIFF OMITTED] T3394.102
    
    [GRAPHIC] [TIFF OMITTED] T3394.103
    
    [GRAPHIC] [TIFF OMITTED] T3394.104
    
    [GRAPHIC] [TIFF OMITTED] T3394.105
    
    [GRAPHIC] [TIFF OMITTED] T3394.106
    
    [GRAPHIC] [TIFF OMITTED] T3394.107
    
    [GRAPHIC] [TIFF OMITTED] T3394.108
    
    [GRAPHIC] [TIFF OMITTED] T3394.109
    
    [GRAPHIC] [TIFF OMITTED] T3394.110
    
    Mr. Souder. Ms. Thau.

                     STATEMENT OF SUE THAU

    Ms. Thau. Chairman Souder, Ranking Member Cummings, 
Congresswoman Watson, thank you for the opportunity to testify 
today on behalf of the Community Anti-Drug Coalitions of 
America and our more than 5,000 coalition members nationwide. I 
am pleased to provide you with CADCA's perspective on the 
Synthetic Drug Control Strategy.
    During my tenure as an OMB Budget Examiner, I analyzed many 
proposed national strategies. I know firsthand that the ones 
with the most impact had sufficient budgetary and other 
resources allocated to them to ensure they achieved results. 
The Synthetic Drug Control Strategy seems comprehensive. 
However, it simply repackages the administration's existing 
budget priorities. The Strategy ignores key programs that 
provide the majority of the community infrastructure and core 
support to local law enforcement prevention and treatment 
efforts to deal with meth where it has emerged as a crisis.
    Prevention is the first line of defense in protecting 
communities from drug abuse, and it is not a one-size-fits-all 
proposition. It hinges on the extent to which schools, parents, 
law enforcement, business and the faith community work 
comprehensively to implement a full array of education, 
prevention, enforcement and treatment initiatives.
    Unfortunately, the prevention portion of the strategy is 
very weak and only highlights three programs. It totally 
ignores two of the main Federal programs that have been 
addressing meth, the Drug Free Communities program and the 
State grants portion of the Safe and Drug Free Schools program. 
These programs are vitally important because they fund 
community and school-based prevention infrastructures that can 
immediately incorporate meth components where meth is a 
problem.
    We know people do not usually start their drug-using 
careers with meth, because, as we mentioned before, the mean 
age at which people initiate meth use is 22. The epidemiology 
of drug use indicates that use trends often spread to 
adolescents. So although meth is not currently a major issue 
among most school-aged youth, it certainly could become one. In 
fact, in many communities where meth is a crisis, use rates for 
school-aged youth are way above State and national averages.
    The prevention lesson to be learned from meth use, given 
its relatively late onset, is that the more successful we are 
at general drug prevention, the less we will have to deal with 
meth use and addiction.
    CADCA knows from its members that this is already 
happening. Coalitions know what their local drug problems are 
and take the necessary steps across community sectors to 
counteract them. The strategy itself points out that States and 
cities must be organized to recognize and deal with meth, yet 
it totally fails to mention the Drug Free Communities program 
which has been very successful in addressing meth issues. 
Communities with existing anti-drug coalitions can identify and 
combat meth problems quickly and before they attain crisis 
proportion.
    Coalitions throughout the country have effectively 
responded to the meth crises and have seen reductions in its 
use. For example, the Salida Build a Generation coalition in 
Salida, CO, used local school survey data to ascertain that 
meth was a problem in their community. When compared to 
Monitoring the Future data for the same time period, their 
community's rate of lifetime meth use for 10th graders was 61.9 
percent above the national rate. As a result of implementing a 
multi-sector approach, the Salida coalition has contributed to 
a 59 percent reduction in meth use among 10th graders, from 
13.9 percent in 2004 to 5.7 percent in 2006.
    School-based prevention should also be a vital component of 
any comprehensive strategy to deal with meth. Where meth is 
identified as an issue, schools have incorporated meth 
education into their existing evidence-based programs. The Safe 
and Drug Free Schools and Communities program has contributed 
to significant reductions in meth use among school-aged youth 
in many States hit by the meth epidemic.
    For example, in Idaho, the Safe and Drug Free School 
program contributed to a decrease of 51.9 percent in lifetime 
meth use among 12th graders, from 10.4 percent in 1996 to 5 
percent in 2004.
    In addition, the 20 percent Governor's setaside for this 
program has been used to address meth. For example, Washington 
State has used their setaside to develop meth action teams in 
every county in the State.
    Communities and schools must have effective prevention 
infrastructures in place to be able to address meth and 
prescription drug abuse. Media campaigns and student drug 
testing are beneficial but not sufficient to provide the stable 
and effective community wide prevention systems required to 
implement data-driven programs and strategies to deal with all 
of the community's drug issues, including meth.
    As my testimony has shown, communities with these 
capabilities have actually beaten back their meth problems 
among school-age youth before they reach crisis proportions.
    Thank you for the opportunity to testify. I would be happy 
to answer any questions you may have.
    Mr. Souder. Thank you.
    [The prepared statement of Ms. Thau follows:]

    [GRAPHIC] [TIFF OMITTED] T3394.111
    
    [GRAPHIC] [TIFF OMITTED] T3394.112
    
    [GRAPHIC] [TIFF OMITTED] T3394.113
    
    [GRAPHIC] [TIFF OMITTED] T3394.114
    
    [GRAPHIC] [TIFF OMITTED] T3394.115
    
    [GRAPHIC] [TIFF OMITTED] T3394.116
    
    [GRAPHIC] [TIFF OMITTED] T3394.117
    
    [GRAPHIC] [TIFF OMITTED] T3394.118
    
    [GRAPHIC] [TIFF OMITTED] T3394.119
    
    [GRAPHIC] [TIFF OMITTED] T3394.120
    
    [GRAPHIC] [TIFF OMITTED] T3394.121
    
    [GRAPHIC] [TIFF OMITTED] T3394.122
    
    [GRAPHIC] [TIFF OMITTED] T3394.123
    
    [GRAPHIC] [TIFF OMITTED] T3394.124
    
    [GRAPHIC] [TIFF OMITTED] T3394.125
    
    [GRAPHIC] [TIFF OMITTED] T3394.126
    
    [GRAPHIC] [TIFF OMITTED] T3394.127
    
    [GRAPHIC] [TIFF OMITTED] T3394.128
    
    [GRAPHIC] [TIFF OMITTED] T3394.129
    
    [GRAPHIC] [TIFF OMITTED] T3394.130
    
    [GRAPHIC] [TIFF OMITTED] T3394.131
    
    [GRAPHIC] [TIFF OMITTED] T3394.132
    
    Mr. Souder. Mr. Brooks.

                    STATEMENT OF RON BROOKS

    Mr. Brooks. Chairman Souder, Ranking Member Cummings, 
Congresswoman Watson, thank you for inviting me to discuss the 
Synthetic Drug Control Strategy. This strategy is a welcome 
development from the administration, but, on behalf of the 
62,000 law enforcement officers I represent as the president of 
the National Narcotic Officers' Associations' Coalition I have 
concerns about serious shortcomings which may put the laudable 
goals of this strategy in jeopardy.
    The strategy is an important first step, but why did it 
take so long for ONDCP to prepare it? Why weren't more partners 
consulted in its development? The strategy is not supported by 
original and meaningful recommendations for action. Without 
action and, more importantly, without buy-in from key 
stakeholders, the Synthetic Drug Control Strategy is in danger 
of becoming irrelevant before it has a chance to succeed.
    In 1995, California was inundated with meth. After I 
alerted DEA and ONDCP leadership, they convened a series of 
stakeholder meetings that resulted in the first methamphetamine 
strategy by the Department of Justice. Collaboration continued 
and progress was being made on the West Coast, but meth was 
slowly creeping eastward. As meth began to overrun the Midwest 
and Appalachia, by 2001 collaboration with ONDCP began to wane. 
By 2004, groups across the country were calling for help from 
Congress; and Congress responded to their constituents by 
drafting the Combat Meth Act, which passed earlier this year.
    While the NNOAC and other key stakeholders worked closely 
with Congress to refine and pass this legislation, ONDCP was 
absent. I personally heard complaints from staff that they 
could not get assistance from ONDCP despite repeated attempts 
to obtain their support.
    Attorney General Gonzales broke the administration's 
silence on meth on July 18, 2005, when he said, in terms of 
damage to children and to our society, meth is now the most 
dangerous drug in America.
    Shortly thereafter, an ONDCP spokesperson wrote off the 
focus on meth by saying that people are crying meth because it 
is a hot new drug.
    Of course people were crying meth. But those of us in law 
enforcement, treatment and prevention knew that we were facing 
a problem that was growing worse by the day. Cops, doctors, 
treatment providers, DAs, child protective agencies and 
community coalitions were being overwhelmed by meth problems in 
many parts of our Nation. They weren't crying meth just to make 
noise. They were asking for help. ONDCP not only ignored them, 
they even tried to tell them that they didn't really have a 
problem.
    This is inexcusable, Mr. Chairman; and this Synthetic Drug 
Control Strategy continues to reflect ONDCP's disregard for the 
experience and perspective of the experts on the ground.
    If the NNOAC had been consulted by ONDCP, we would have 
made the following recommendations: Support law enforcement 
task forces that have seized thousands of meth labs by fully 
funding the Byrne Justice Assistance Grant program at the 
currently authorized $1.1 billion level.
    Fund the COPS Methamphetamines Hot Spot program, which has 
provided resources to hard-hit areas to train, equip and 
mobilize law enforcement resources to address the meth issues.
    Call on Congress to authorize the Center for Task Force 
Training at the Bureau of Justice Assistance, which provides 
much-needed training for drug task force commanders and meth 
investigators.
    Ensure that the OCDETF Fusion Center is coordinated with 
Regional Information Sharing Systems and the HIDTA Intel 
Centers and ensure that the OCDETF Fusion Center follows the 
guidelines of the National Criminal Intelligence Sharing Plan 
which was implemented by the Department of Justice.
    State and local drug task forces funded through Byrne were 
responsible for seizing 5,400 meth labs in 2004 alone. How 
effective is a strategy that establishes lab seizures as a goal 
and then takes away funding from the Byrne-funded task forces 
that make a large percentage of those seizures? Less law 
enforcement equals fewer labs seized. That is not success. That 
is surrender.
    The strategy states that the administration will continue 
to partner with State, county, tribal and city governments over 
the next 3 years to attack the illicit use of methamphetamine. 
Yet the administration has proposed in the past 2 years to 
disengage from State and local partnerships by recommending 
termination of key assistance and training programs such as 
Byrne, JAG, COPS Hot Spots and the Center for Task Force 
Training.
    Paying lip service to the importance of Federal, State 
local law enforcement partnerships without putting resources 
and actions behind the words is a recipe for a failed Synthetic 
Drug Control Strategy.
    Mr. Chairman, I have always believed that treatment, 
education and prevention hold the keys for reducing America's 
drug problem. As long as drug traffickers ply their trade, 
narcotics officers will be there to stop them. Clinically 
appropriate treatment must be made available, but stopping use 
before it starts should be our ultimate goal. The things I have 
seen meth addicts do to themselves and others would make 
members of this subcommittee cringe. Collectively, we must do 
all we can to prevent first use, but the synthetic strategy 
fails to address prevention in a comprehensive way.
    Community Anti-Drug Coalitions are critical. Effective 
school-based anti-drug curriculum is important. Aggressive 
enforcement against drug producers and traffickers is 
absolutely essential.
    ONDCP has had an opportunity to really step up to the plate 
by issuing a strategy. I am truly disappointed that it provides 
little new strategic direction to address the meth problem. I 
am hoping that, with the continued leadership of this 
subcommittee, the strategy will be re-thought in a 
collaborative environment with input from all of the key 
constituents and that a new, more robust, well-thought-out 
Synthetic Drug Control Strategy will be the result.
    Thank you.
    [The prepared statement of Mr. Brooks follows:]

    [GRAPHIC] [TIFF OMITTED] T3394.133
    
    [GRAPHIC] [TIFF OMITTED] T3394.134
    
    [GRAPHIC] [TIFF OMITTED] T3394.135
    
    [GRAPHIC] [TIFF OMITTED] T3394.136
    
    [GRAPHIC] [TIFF OMITTED] T3394.137
    
    [GRAPHIC] [TIFF OMITTED] T3394.138
    
    [GRAPHIC] [TIFF OMITTED] T3394.139
    
    [GRAPHIC] [TIFF OMITTED] T3394.140
    
    [GRAPHIC] [TIFF OMITTED] T3394.141
    
    [GRAPHIC] [TIFF OMITTED] T3394.142
    
    [GRAPHIC] [TIFF OMITTED] T3394.143
    
    [GRAPHIC] [TIFF OMITTED] T3394.144
    
    [GRAPHIC] [TIFF OMITTED] T3394.145
    
    [GRAPHIC] [TIFF OMITTED] T3394.146
    
    [GRAPHIC] [TIFF OMITTED] T3394.147
    
    [GRAPHIC] [TIFF OMITTED] T3394.148
    
    [GRAPHIC] [TIFF OMITTED] T3394.149
    
    [GRAPHIC] [TIFF OMITTED] T3394.150
    
    [GRAPHIC] [TIFF OMITTED] T3394.151
    
    [GRAPHIC] [TIFF OMITTED] T3394.152
    
    Mr. Souder. Well, when your panel starts out with the 
Association of Counties saying ``had we been consulted'' and 
finishes with the narcotics officer saying ``had we been 
consulted,'' you are less impressed with the first panel's 
assertion that you were consulted.
    Let me ask a broad question, because I am kind of confused 
that, in Mr. Burns' testimony, I felt it was very significant 
that the administration says that they don't do strategies by 
subgroups. In other words, we kind of have a general--I am 
trying to figure out from a private business approach that--
normally, what you would have is a sweeping national strategy 
of things that are in common. But I can't hardly imagine that 
you wouldn't have a substrategy that would have either in two 
different ways or different components that relate different 
ways.
    So, first, why wouldn't you have a cocaine strategy, a 
heroin strategy, a prescription drug strategy, a meth strategy, 
a marijuana strategy that would then take into account some 
fundamental things that we are hearing here? For example, 
cocaine is not everywhere, but it certainly is concentrated. It 
is a major drug, and it tends to be more urban. Crack tends to 
be historically younger, but I don't know. We have an 
Intelligence Center that does a lot of this kind of stuff. But 
heroin is a superhuge problem in some cities like Seattle 
historically and less in others to varying degrees; and then we 
had it pop up, as it did a few years ago, in Plano or Orlando 
or different types of things. Oxycontin will pop up in 
different areas. Why wouldn't you have then tailored strategies 
that fit inside your national strategy as a regular course of 
doing business?
    Also, the HIDTAs on the law enforcement side were meant to 
kind of be regionalized because some of these problems are 
regional. So if meth pops up as a challenge you would have 
HIDTAs that dealt with meth. I am kind of baffled by a 
principle that says we don't break these out and then work in 
subgroup.
    Let me ask one followup with this. I made kind of a 
derogatory comment about conferences. I am not against 
conferences, and I just could not believe that was the primary 
strategy.
    On the other hand, Ms. Green, you outlined some of the--
what the purpose of these conferences were, which is hopefully 
to get very specific on what is needed at the State level, what 
is needed in coordination. Why wouldn't that be done before you 
issued a strategy?
    In other words, isn't that what you think you would do as 
you approach cocaine, as you approach meth, as you approach 
each of these types of things, that there would be regional 
efforts to pull together the principles in wherever these are 
problems? You would get them together and say what laws do we 
have on this? What are you doing at the local level? What more 
can be done at the Federal level? What funding sources do you 
need? Why wouldn't you do what they are proposing to do after 
they issue the strategy before you develop--as a process of 
developing a strategy and why wouldn't you be doing this on 
multiple drugs?
    Ms. Watson. Mr. Chairman, would you yield for a minute to 
ask a question. I will go on to the floor, and I will take it 
in writing.
    But in listening to this panel on the ground, those of you 
who are on the ground, it occurs to me, is there an opportunity 
to evaluate and assess the various programs that are being 
described by the administration? Do they work? What are the 
best practices?
    I listened very intently to you, Ms. Green. I think you 
came closer to my concerns.
    And, Mr. Coleman, as heading up an organization in northern 
California, I would like to hear from you as to what actually 
is going on in various areas of our State, the largest in the 
Union, and what is working.
    Mr. Brooks, what do we need in terms of law enforcement, 
what kinds of coordination? Because I join my colleagues--you 
know, we sit here in Washington, and we come up with these 
plans. We have a vision for where we want to go. But there 
seems to be a disconnect when it gets down to the local 
community, and I find my community void of the resources and 
the programs. We work through our counties in California, and 
they are not funded to the point they should be to address 
these programs.
    So, my general question, Mr. Chairman, is there some way to 
evaluate the plans that are coming from the administration, the 
HIDTA program and all these others so that we then can come 
back and make decisions as it deals with appropriating funds to 
some specific local community, their programs?
    So I just throw that out. You can respond in writing. This 
is who I am; and these are broad, general concerns that I have 
about this whole synthetic drug control program.
    Thank you so much, Mr. Chairman. I am going to go on to the 
floor.
    Mr. Souder. Thank you.
    Ms. Green.
    Ms. Green. Yes, Mr. Chairman.
    The process that you described, if one were to use a 
rational and logical process for determining what would be the 
components of a particular strategy, you would follow the 
particular process that you outlined. Because the purpose of 
understanding the particular action plans and recommendations 
and problems and concerns that are going on at the various 
State and local level is to determine when you do a strategy 
what it is that is common in terms of overall themes, what is 
different, as you indicated. Because that difference can be 
among drugs. It can be among counties. It can be in localities. 
All of those would have to be taken into consideration.
    Then what happens is all of that information helps you 
determine what the overall themes are, and those become the 
common principles of the overall strategy. Then you do in very 
specific action steps and action plans lay out what needs to be 
done to address the particular differences between the drugs, 
the particular differences between systems. That would be the 
rational process.
    We have not actually been very successful in persuading 
ONDCP that they should follow a particular rational process in 
developing a strategy. We often do not have the opportunity, 
because we have actually never been consulted in terms of the 
national drug strategy at all.
    Mr. Souder. But you do model State drug laws.
    Ms. Green. We do model State drug laws; and part of our 
process is actually to assess how these laws are working. Are 
they working, are there similarities among the different kinds 
of laws, are there different options that can have the same 
theme but maybe vary based upon the needs of State?
    Mr. Souder. Do States listen to you?
    Ms. Green. Yes, actually, we work with, at any given time, 
about 3 different States; and we work with all 50 States on 
over 40 different drug and alcohol issues.
    Mr. Cummings. Just very briefly, I want, first of all, to 
thank all of you for your testimony. I think it was good that 
you had an opportunity to sit in the audience and hear the 
folks that came before you. I am also glad that you had an 
opportunity to hear our frustration.
    There was an amendment on the floor which said that ONDCP 
should work with and collaborate with folks on the ground. That 
is incredible. And we are going to continue to do what we can 
because we realize--again, we are trying to figure out--I tell 
people, you know, we do not have but so long to be on this 
Earth, and we do not have time to waste time, and we do not 
have time to waste money. And if you all are on the ground and 
you are dealing with these kinds of things on a daily basis in 
whatever arenas you may be in, it just makes sense to me that 
this should not be an us and them. It should be all of us 
working together to achieve these goals in some kind of way.
    I just want to thank you all for your willingness to come 
to the table, and now we just have to get the other folks to 
come to the table so that we can achieve the things that we 
need to achieve.
    But, again, I want to thank you, and I will have some 
followup questions, but I will put those in writing.
    Mr. Souder. The subcommittee will stand in recess for this 
vote. I plan to reconvene for a couple of additional questions. 
Thanks.
    [Recess.]
    Mr. Souder. The subcommittee will come back to order.
    I had a couple of questions I wanted to finish the hearing 
with. I appreciate your patience. If I could return to the 
question of the statewide conferences that are proposed. Is 
there any assurances of, as to--I have been to many 
conferences, and some conferences you go and hear speakers and 
then sit kind of laissez faire how you apply it. And then other 
conferences, you go, and at the end of the day, there are 
resolutions that tend to be almost like us trying to negotiate 
a bill going to the floor depending on how diverse the group 
is. Then there are other times where it is, you have--it is 
almost like you have to have a pre-conference group that sets 
out some things that are more specific that can move to an 
action plan.
    Ms. Green, you outlined in your testimony fairly specific 
goals for the conference that I didn't hear the same 
specificity out of the ONDCP. On the other hand, we didn't ask 
them precisely the same question. Do you believe and do the 
others believe that there is a way to structure these such that 
we can in fact get more specific and effective kind of regional 
plans and specific State plans? Or basically, will this just be 
a verification of those States that are organized? Indiana has 
been getting organized; Hawaii has been organized for quite a 
while. How do you see this evolving? And how can we make sure 
that it then gets somehow assimilated to a very specific 
national plan where the threads that are in common that are 
national, such as crystal meth coming across the border, need 
for certain type of treatments, can be nationalized, and things 
that are regionalized and implemented at regional--can be 
regionalized? I would like the input of anyone here on how--do 
you sense that ONDCP is committed to having more than a hand-
holding conference? And, second, how can we make it such that 
it has specific plans?
    Ms. Green. Mr. Chairman, I will start since we are the ones 
that the three agencies, the Justice Department, ONDCP, and 
HHS, have asked to conduct these conferences.
    Do I believe there is a way to make these conferences 
productive and to have them come out with very specific action 
plans? Yes, precisely because of the very specific process that 
I outlined. Now, the key to that process, though, is to have 
those individuals who actually know specifically what is going 
on at the State and local level can identify the concerns, can 
identify what is actually working, can identify particular gaps 
that they are seeing and put that information together. Now, 
the key to that is that all of the individuals that are on this 
panel with me are actually going to be involved in those 
particular conferences. At the same time, we are going to hold 
four of them in different regions.
    At the same time, we are working with certain evaluations 
and certain specialists, such as Dr. Carnivalie, who has a 
specialty in being able to help identify certain common themes 
and certain specific differences that may, for example, apply 
to one region, for example the southeast region which is more a 
preventive mode as opposed to the western region which has 
actually got a great deal of experience on more issues such as 
clean-up and remediation of meth labs.
    So we have a group of State and locals that are going to 
actually discuss very specific needs, goals, what is happening, 
what is not happening, what is working, what is not working. 
They are going to talk to us about the information that they 
actually have that indicates successes or positive benefits. 
Some of the type of information that I suggest in my testimony 
we can't get from the Federal level. And then we are going to 
work again with a group of individuals who have a base of 
experience in looking at that information and being able to 
help assess, what does that mean in terms of similarities, 
common themes?
    Now, as to, do I believe that ONDCP is committed? My 
experience is that ONDCP is never committed to action. ONDCP is 
primarily committed to being able to say what they need to say 
to try to be able to either checkmark something that they 
believe that they are committed to do; but when it comes to me 
believing that they are actually committed to action, I'd have 
to say, historically, I've never actually seen that. 
Individuals within ONDCP, for example, Scott Burns, yes. I 
believe he is committed to action. But since he is not the drug 
czar at this current moment, I couldn't tell you that my 
experience with ONDCP under this particular drug czar's office 
suggests that they are going to commit to any action.
    Now, one of the things we are doing to offset what I 
perceive may happen, which may be an attempt to either try to 
sanitize what comes out of it or somehow the information to 
inadvertently get lost, my staff and I are actually going to 
put together the information, work with, as I said, Dr. 
Carnivalie and others to see what it says. We are going to 
retain that information so that we can disseminate it to all 
the Federal, State and local policymakers and our partners so 
that everyone is very clear about what is coming out of these.
    Mr. Souder. Mr. Brooks.
    Mr. Brooks. I would have to agree on that. I want to start 
by saying that, first of all, they did this all backward. I 
mean, the conferences should have come before the strategy. In 
the old days, when we developed the National Drug Control 
Strategy or the first meth control strategy out of DOJ with DEA 
and ONDCP, we came together, we had plenary sessions with 
experts, and then we broke into groups, and we developed action 
plans in really robust facilitated focused groups that 
represented all of the key constituencies, parents groups, 
treatment, the lawyers side of the house, the cops, everybody. 
Then we came up with strategies. These were true collaborative 
strategies where people bought in as real stakeholders, where 
they had a feeling of ownership and were then able to go out 
and implement strategies. And had ONDCP done that, which they 
haven't--this administration and ONDCP has never done. They 
don't hold key constituent meetings. We have never had focused 
groups and constituent meetings to develop the National Drug 
Control Strategy or this strategy or the Southwest Border 
Strategy.
    The newly emerging Fentanyl threat is being driven by the 
HIDTA directors in the Chicago and Philadelphia police 
departments, not by ONDCP as it should. And let me add by 
saying that ONDCP--I was cornered in the hallway, and they were 
outraged at my testimony, my written statement, because I 
affirmed that they had not been collaborative. They said, well, 
we sent an e-mail to the HIDTA directors. And I said, you know 
what? An e-mail, without knowing what you are working on or 
where it is coming from, a simple one e-mail traffic is not a 
collaborative process. When we sit down with all of the 
stakeholders, the people on this panel and all of the groups 
that they represent, that would be a collaborative process. 
That would have been a strategy that we and you could buy into. 
But they didn't do it.
    Mr. Souder. Any other comments on that?
    Mr. Coleman. Yes, I do. We think what ONDCP did was put the 
cart before the horse. They should have had the meth summits 
prior to listen to what was coming out of them. Now, the 
counties are to be involved with the summits in which we look 
at the regional plan and all of that coming at the national 
plan and which will be addressing this problem. But to come out 
with all these plans without the stakeholders being involved 
doesn't help, doesn't solve the problem; it only creates a 
problem. And then when you don't put the money with it, it also 
creates additional problems. So we are looking forward to the 
summits. We will be involved in that, and we will come up with 
a national plan.
    Mr. Souder. It is pretty massive when you look at all the 
different narcotics and you look at all the different 
challenges in the regional variations. But one of the things 
is--with meth--that is so unusual is that we could see it 
coming. And that is what is so exasperating here, is now we are 
kind of maybe at least at a flattening if not a decline in the 
mom-and-pop labs. But I remember years ago, the Asians in our 
international narcotics legislators--anti-narcotics legislators 
groups raising synthetic drugs. And the Europeans and the South 
Americans and the North Americans going, well, we don't even 
know really what you're particularly talking about at this 
point. But in Hawaii, they did. So they have a long track 
record in Hawaii. And then it hits our West Coast, and it just 
marches. And in a hearing in Minnesota, I asked if it had been 
in any of the Native American areas, and they said, it is 
devastating them, and yet that had never come up as a 
subcategory that--what I heard from the U.S. attorney who works 
with the northern U.S. Indian nations that it had become a 
bigger problem than alcohol. That is a pretty extraordinary 
statement for the government not to be aggressive and saying 
this isn't a national problem if it is in the Indian nations. 
And then there was this mythology that developed that somehow--
I literally heard this at two different hearings out of the 
Federal Government, more speculative as to why this was in 
rural areas and not urban areas, that somehow African-Americans 
wouldn't be attracted to meth. And then in one in Minneapolis, 
the police chief there I believe said that in one neighborhood 
the particular distribution groups switched over, and all of a 
sudden, 20 percent of the cases in that city were African-
American because one neighborhood switched over from crack and 
to crystal meth. And it appeared to be more of a distribution 
question. Well, that is a pretty fundamental misunderstanding 
in the Federal Government, to not understand the distribution 
patterns of how meth goes.
    And I am just--Dr. Gallant, I saw you were going to add 
something here, too, in these conferences. But I am wondering 
whether, what kind of early warning system do we have for 
future things when--we talked about Chicago, Philadelphia. Some 
of these things pop up, and you can get them down quick enough. 
But this one was like a train that's been rolling for over a 
decade.
    Mr. Gallant. In terms of early warning, I think one of the 
things that our Federal partners, particularly SAMHSA, can do 
is to put into place early warning systems that are current. 
Many of the early warning systems they have currently are 
dated. You know, they go back 20, 30 years and really haven't 
caught up with what we are facing today. So a national strategy 
to get data, current data, usable data rather than just collect 
data based on some mythology from the past or some issue from 
the past that currently doesn't exist I think needs to be 
addressed.
    Mr. Souder. For drug treatment and health questions, 
wouldn't we--much of the surveys I see and so often are like 3 
years old. They will be 2001, 2002, 2003, and you're in 2006 
trying to make legislative funding priorities. And that is 
helpful because that data will be more comprehensive, plus we 
have trend lines on some of that. But why wouldn't that in a 
logical way be supplemented with almost, in the days of 
Internet, instantaneous data on emergency room, drug court, 
which are two frontline groups.
    Another would be, what we are picking up on the border on a 
daily basis. In other words, it is not like we are not 
accounting for this when the Department of Homeland Security 
picks this up if our suppositions are correct in that after 
certain States in the southwest start in that pseudoephedrine 
law, we should have seen if crystal meth's coming into the 
United States, and in fact, 60 to 70 to 80 percent of meth is 
crystal meth, and if it is coming across the southwest border 
and if we are actually intercepting anything, which is 
debatable, but if we are intercepting things, we should have 
seen a bump up, and it should have been almost instantaneous 
data that when a policeman makes an arrest on the street, that 
data gets fed into EPIC. It is like, why can't you have kind of 
an ongoing kind of daily tracking, which presumably some drug 
intelligence centers and EPIC do, but it doesn't seem to get to 
us? What we tend to get in our hearings are historical data. 
Any comments on whether you see more contemporary things than 
we see here?
    Mr. Brooks. Well, I think, again, the issue is a great 
example. As Fentanyl began to hit, as there was a seizure of 
Fentanyl coming across the border in San Diego, the San Diego 
HIDTA, the CBAG issued the first bulletin. It went out to law 
enforcement and ONDCP. We started to see Fentanyl deaths first 
in Chicago and then in Philadelphia and then in the Midwest, in 
the Kansas City area. And bulletins began coming out, and it 
was those emergency medical personnel and law enforcement and 
treatment folks in those cities that began to collaborate. So I 
think things do happen regionally. NDIC has just come out with 
an excellent Fentanyl bulletin out to law enforcement that is 
addressing the threat, and this is a breaking emerging tread. 
So things do happen. But there is disconnect, and it is really 
a shame, I think, that ONDCP is not the coordinator of pushing 
out this data, because they can get it out to all the 
constituent groups, to all the prevention folks, to the 
community coalitions, the law enforcement. But there is a 
disconnect there.
    Mr. Souder. Do you get information as to, why Chicago and 
Philadelphia?
    Mr. Brooks. You know what, we are only surmising that there 
are some distribution groups that had the ability--that were in 
place there that had the ability to bring this Fentanyl from 
labs in Mexico. We believe anecdotally that the labs are in 
Mexico. Now, we have seen domestic labs in this country, 
Fentanyl labs. We struggled with a tough Fentanyl problem in 
California in the mid 1980's. I personally raided two labs back 
in those days. But we believe now it is coming out of Mexico. 
These tend to be controlled by drug, DTOs and families, and so 
it is probably just where they ended up.
    Now, it's interesting, we just had three overdoses of 
Fentanyl in a California prison; one death, two recovered. So 
somehow the Fentanyl made its way into that prison. But we have 
not seen Fentanyl on the street in California yet. But I could 
tell you that, every single day, the HIDTA directors are 
communicating by e-mail not only with ourselves but with all of 
the law enforcement partners that we represent every day as 
this Fentanyl crisis is emerging.
    Mr. Souder. I want to ask you a couple of questions leading 
to one broad one. But on the community anti-drug coalitions, do 
you get--how many are there? There are well over 100 now.
    Ms. Thau. Nationwide, there are about--drug-free 
communities funded, are like 1,000. We have about 5,000 
members.
    Mr. Souder. You have 5,000 members; 1,000 are funded now 
through ONDCP. Now, in that thousand, do you get access to this 
kind of information of what is happening regionally?
    Ms. Thau. We get access to them as far as what is going on 
in their coalitions. We actually collect the data, which is how 
we came up with the outcomes to put in this package.
    Mr. Souder. Like if Fentanyl all of a sudden pops up in two 
markets, you would see your data collection pop up?
    Ms. Thau. They would be, because they have police and law 
enforcement--every single one of these coalitions has law 
enforcement sitting there for exactly that reason; because if 
you are going to comprehensively look at what you are doing in 
a community, you have to talk to your emergency room people, 
you have to have police at the table. And the school survey 
datas may be every 2 years, but the point I was going to make 
is the stuff that you hear from the Federal Government is 
monitoring the future, which is a survey sample nationally, 
which masks all of the richness of what is happening in regions 
and specific communities in the country. And that's probably 
why they haven't seen it, because they are not looking at what 
communities and States are looking at, which is their data. And 
as you know, the data issue is that a lot of these Federal 
agencies like Safe and Drug-Free Schools don't even ask for the 
data from the States and the States have it. The States that 
have had big meth issues have seen, as we said, higher usage 
rates among their students than States that didn't have a big 
meth issue.
    So the States and the communities get it, but it is never 
aggregated up to the point that it comes to you, other than 
these national samples that mask all of the variation in local 
and regional data.
    Mr. Souder. In the community anti-drug initiative, you are 
not limited just to youth?
    Ms. Thau. No.
    Mr. Souder. One of the things that came up in the National 
Ad Campaign is we addressed meth, and in your testimony, you 
showed kind of the introductory process of alcohol, tobacco, 
marijuana, cocaine, and how the process ages. Our National Ad 
Campaign is geared toward youth. The theory was--is that, if we 
tackle, kind of break--at the current time, it is marijuana. 
Everything else will be controlled.
    How do we do a post-analysis to say that strategy failed? 
In other words, that it is hard to say how much it failed 
because, in fact, marijuana use was going down, yet a 
methamphetamine epidemic would hit a community and wipe it out 
regardless of whether the kids have gone to Safe and Drug-Free 
Schools and had the other things or not, and yet our ad 
campaign was just focused on below 18. We suddenly have a 
problem that is devastating our local task forces. Our 
hospitals, everything, drug courts everything else are 
overwhelmed when it hit a market, and yet we say, well, we 
addressed this back when they were 16. Do you have any thoughts 
on whether or not our policy in many areas in prevention--Drug-
Free Schools would be one example. International youth ad 
campaign doesn't really tackle the richness of the assumption.
    I have asked these questions for years because I have a 
theory that the reason we went to youth campaigns was not just 
to prevent at an early age. It is because it is easier to get 
kids to agree than it is to get adults to agree. And that it 
was the ease of having kids go, yes, I think drugs are 
terrible. And then we move it down farther because--and yet the 
tough ages are junior high and into high school, and it gets 
even tougher when you are dealing with somebody on an assembly 
line. A woman is trying to lose weight, and they want to use 
methamphetamines. They don't necessarily remember back in fifth 
grade. How do we--any thoughts on this subject? And, for 
example, why weren't the community anti-drug coalition systems 
oriented toward youth? If this whole thing could be solved if 
we addressed youth, you obviously when you worked with the 
development of this program wanted to go beyond youth.
    Ms. Thau. Well, ONDCP is focused on youth. However, it is 
community-wide. And what we know is that drug trends do start 
in using populations, but then they go down. Like ecstasy 
started in older populations and ended up in high school kids.
    Part of the issue is what you said before about, how do you 
do a strategy? One, do you need basic prevention for everybody? 
Yes. Do you need then to hit specifically specific drugs within 
that? You do. You can do the base prevention, but if we know 
that risk--perception of risk and social disapproval for 
specific drugs is what drives the trends on those, you can't 
just think that general drug prevention is going to totally do 
it. You have to build into it components for the emerging drug 
trends as they are coming up. And you have to be very cognizant 
of what age groups are using what substances.
    Mr. Souder. Any other thoughts on this? I wanted to touch 
on one other point with treatment and Dr. Gallant. And we have 
heard multiple witnesses and including in my opening statement 
say that a mythology developed that meth--there wasn't really a 
good treatment for meth. Part of the way this mythology 
developed, quite frankly, because sometimes we hold up the 
grassroots as all knowing. It came from the grassroots. Because 
I have conducted at least 10 hearings on meth, and I have had 
at least 5 hearings where treatment experts testified at 
regional level that meth was different in treatment, that it 
was hard to treat, unsolvable to treat; that local places--this 
was not some kind of mythology developed in Congress. This was 
a mythology that developed at the grassroots. Are you telling 
me that meth can be treated like any other drug? That it is 
harder, easier to treat? It is like what? Because it is 
important if we are going to clarify the record here to try to 
figure out how to clarify the record.
    Mr. Gallant. We do believe that meth can be treated like 
any other drug. But one of the distinct differences in meth is 
duration of treatment. And I think as, Congresswoman Watson 
pointed out, when she went to the one program that she felt 
might have some value for her niece, it was a long-term program 
of up to 24 months individualized for the person entering in 
the program. So the feature we found with the meth is that it 
is such a powerful drug; it is such an addictive drug, that in 
order to get the person clean and sober and into recovery, it 
takes much longer than for some of the other drugs that our 
system encounters.
    Mr. Souder. I believe it was in your testimony that you 
listed some of these drug programs that had the----
    Mr. Gallant. Yes. Colorado, Tennessee.
    Mr. Souder. I think one of them said in Utah, if I 
remember--Utah that 60.8 percent of methamphetamine users were 
abstaining at the point of discharge. Which means that 40 
percent were still using meth at discharge?
    Mr. Gallant. True. At some level.
    Mr. Souder. Is that indicative more of what you were saying 
about the length of time that they may have had short programs 
or that they--because you--discharge, could discharge in that 
case also mean that they were expelled from the program or 
withdrew from the program? It is not completion of a program.
    Mr. Gallant. Right.
    The Chairman. So that helps me understand that figure 
because it is a wide range. Some had--where you have 80 percent 
after 6 months, that is a different standard than--but would 
the word discharge, which you used in your testimony in a 
number of places, does discharge usually mean that the person--
would that include withdrawal? And when you say--so let me--I 
am trying to sort out the data here, because you kind of had 
apples and oranges mixed here, and I am just trying to compare 
them.
    If Utah had a 60 percent in their State division who are 
abstinent at time of discharge, that would mean everybody who 
entered the program, including those who withdrew, failed, were 
kicked out, maybe it was voluntary people who left. Then if you 
say, in Tennessee, that 65 percent were abstinent 6 months 
after treatment, that wouldn't necessarily--those would be 
probably people who completed the program, and then 65 percent. 
Because it wouldn't--do you know of any surveys that surveyed 
the people that dropped out in trying to measure whether people 
are impacted afterwards? It is usually if they've completed the 
program when they do the measurement.
    Mr. Gallant. The data that we presented probably would not 
include those who dropped out and did not have a positive 
outcome.
    Mr. Souder. And in the data that you presented, I know 
these are difficult questions because there are, in the 
prepared testimony, a few examples, and didn't examine all the 
subcomponents of that. But would this data that you had for 
Colorado, Idaho--and the written testimony, Colorado, Iowa, 
Minnesota, Tennessee, Texas, Utah, which ranges from the kind 
of the extremes of only 60 percent in effect being abstinent, 
who went in, and statewide in all treatment, to 80-some percent 
being abstinent at discharge, which is a 60, 80, Colorado, 
Utah, to 73 percent 6 months after in Minnesota? Is that 
comparable to the range of type of things we would see if this 
survey had been cocaine?
    Mr. Gallant. Probably. What we are trying to demonstrate 
there is that treatment is effective, and it is effective long 
range. At discharge, the person was clean. Six months later, we 
went back and interviewed the person again to try to determine 
if they had reverted to use. The data suggests that they had 
not reverted to use, that they were clean 6 months post-
discharge from the program as a success.
    Mr. Souder. As we move toward our treatment hearing, one of 
the questions that--because I am sure at least somebody from 
your association will be involved in that, if not you directly. 
Could you look and see how this data that you have been 
collecting on meth, how that compares to other drugs? And if it 
is substantially different, meaning substantial variation, 
minimum 5 percent--10 percent would be pretty significant--if 
it is by 10 percent different, I mean actual 10 percent range, 
that would be more like 15 percent actual over the top, if it 
is significantly different--because we know there is going to 
be differences, because we--where it is newer and some States 
were farther along, some States were more rural than urban, 
what they pay their treatment people. I understand all the 
variations. That is why a normal statistical difference might 
be five. I am looking for a lot more than five. If there are 
statistical differences in meth effectiveness from cocaine, 
heroin, marijuana, other drugs. Then, second, whether that gap 
has closed in the last few years because SAMHSA has been 
looking at doing more directed meth treatment.
    And then, if there is a gap and it is not closing, is part 
of what I suggested earlier part of this problem that rural 
treatment facilities do not--where many of the meth addicts 
are--are not there? And in fact, it isn't a treatment question; 
it is that the longer-term, higher professional, more expensive 
treatment is not available in the areas where the meth is?
    Because if, in fact, it is the same, then my premise, that 
there was a difference in rural health care from urban health 
care, wouldn't really be there. In other words, if in fact you 
are finding right now that meth treatment is just as effective 
as cocaine treatment, then we don't really need to look at 
whether we need special programs in rural meth treatment, 
because in fact it is working as well as everything else. If 
there is a gap, then we need to figure out whether we need to 
do something particularly for meth. And that is going to be one 
of the main focuses of our hearing, what unique challenges are 
there. Because if the data is good, that is where you go. Look, 
you don't need to customize everything strategy if there are 
certain basic principles that work, if length of time is a 
major variable, if it is training of the individual.
    Now, we have had a lot of testimony particularly from 
grassroots providers that meth seizes the body differently in 
that it has a different impact on the brain. Do you agree with 
that?
    Mr. Gallant. I would agree with that.
    Mr. Souder. And so that is why the treatment would be 
longer?
    Mr. Gallant. Well, again, I think that the addictive 
properties of meth are such that it just sort of wraps the 
person up. In order to get the person clean takes a longer 
length of stay than you might find with other drugs.
    But to answer your other question about rural versus urban, 
one of the things we know we have to attend to, if we are not, 
is work force development and provider development. You know, 
we can get all the money in the world, but if you don't have a 
competent work force to deliver the service regardless of 
wherever they are, you are not going to achieve your objective. 
So our goal as an association is to ensure that we work with 
SAMHSA and HHS to ensure that we have a good solid provider 
development program, a good solid work force development 
program. They have two mechanisms in place currently that 
allows them to get to that. One is the Addiction Technology 
Transfer Services, and the other is the centers for the 
application of prevention technologies. They are underfunded. I 
think ATTSs are funded at about $11 million. That is not a good 
work force strategy. You can't adequately cover the country 
with a work force strategy involving $11 million. So our goal 
is to look at getting a more competent work force in place, 
having a variety of mechanisms to do that; you know, not only 
through conferences but basic education, community colleges, 
secondary; you know, universities, graduate school programs, to 
help those who want to enter this field get into it and get the 
skill sets they need to be competent in their work. And then 
for providers. Providers sometimes get into this business 
thinking that they want to do good but don't have the ability 
to run a business. So we need to help them understand how you 
run a business, how you access funding, how you write a grant, 
how you hire people, and how you manage a facility. Those are 
basic tenets of trying to run a good business. And that is one 
thing that our system currently does not pay a lot of attention 
to.
    Mr. Souder. Let me finish with a series of questions around 
this subject, because having worked with this for a long time, 
it has really reared its head in the meth question, and that is 
that, how do you deal with the different intensity of impacts 
of some drugs versus other drugs? And even within that drug, a 
disproportionate impact from one type of that drug versus the 
other? So let me give you--let me relate this particularly.
    Part of the reason that the politics of this are 
different--and it isn't the politics just at the Federal level. 
There is no question that the most important significant thing 
in moving us to a national meth strategy was the National 
Association of County Survey. And we can never thank you 
enough. Because by nationalizing it through your county 
organizations and surveying them and having them respond, which 
if there is ever a doubt that, at a local level, that a survey 
like this or the input works, this one did, because we 
constantly heard it was a regional question. It is a regional 
question. Yeah, but you know what? If you add up every region, 
it's a national question. The only place it wasn't there really 
was New England, and now we are learning that Florida has much 
more of a problem than they thought they had, and they 
supposedly in the southeast didn't have much. But as it is 
rolling around, we found out, well, they did, they just weren't 
paying as much of it--it wasn't as big a focus. Because part of 
the difference here was the mom-and-pop labs so devastated our 
drug infrastructure that the impact of the narcotic became--you 
know, we would have a regional hearing. And I could see the 
crowd get restless every time DEA said the basic same 
testimony: That two-thirds, which is now they say 80 percent, 
is crystal meth. And the local community would get all 
restless. First off, they wouldn't necessarily see the crystal 
meth as much. But the mom-and-pop, the Nazi lab type things 
would tie up your local drug force so that you couldn't even 
find out whether you had crystal meth. You couldn't find out 
whether you had crack. You couldn't find out whether you had 
marijuana because your drug task force in one of my counties 
was sitting there 6, 8 hours at a house. So they couldn't pick 
up anybody else. And so it had a disproportionate impact on the 
ability of our drug task forces to work. That, we would go into 
a community in--Ramsey County is one that sticks out, but I 
know Lee Terry told me similar things happened in Omaha. We 
heard similar testimony in Oregon, that when meth would hit a 
community in the mom-and-pop labs, which would tend to be 
picked up first because local law enforcement can't let these 
idiots explode the buildings in their towns, blow up kids in 
the house and so on, get ammonia and everything else into the 
water in the community, so that obviously had to be a takedown. 
So they would take down those first. So the emergency room 
admissions were more likely to be mom-and-pop lab people tying 
up the emergency rooms because that is who the law enforcement 
were having to deal with because, like in my area, they catch a 
building on fire and whatever.
    California was the first State that really had this 
devastating--which led to their law. Now, that disproportionate 
impact we heard in Ramsey County. Then the next thing is that 
they went from a standing start to, 6 months, 80 percent of the 
kids in child custody were meth users, from zero to 80 percent 
in 6 months, which meant that the child custody program was 
overwhelmed, because when you have some idiot cooker in their 
home with little kids present, you can't leave the little kids 
in there that--so they are going to wind up in child custody. 
So all of a sudden, kids who are in child abuse homes, 
conventional child abuse, don't have a place to go because 80 
percent of your people are being taken up with urgent meth 
cases; that we heard in drug courts, in different cities, drug 
courts would go from 10 or 20 percent to all of a sudden 80 
percent. In Elkhart County in my district, the county, the jail 
went from nothing to 90 percent being meth users, which meant 
that you couldn't--you can talk all you want about marijuana 
laws, but you can't arrest anybody for marijuana if your jail 
is full. You don't have any place to put them. I mean, you can 
give them a ticket or something, but you don't have any place 
to put them. You don't have any place to put people who stole a 
car because your jail is full of meth users.
    Now my question is, do we have an adequate way in our 
system to measure in our targeting that if something kind of 
rips the guts out of the system, what is the point of us 
funding a diverse drug task force if one drug is wiping out the 
task forces? If it is hitting the emergency rooms? If it is 
hitting the drug courts? And part of the political frustration 
here is the politicians understood that. Because if you're a 
county commissioner, you have to figure out how to pay for it; 
that the police, the narcotics officers were on to this because 
they were standing at a house waiting forever for DEA or EPA to 
come over, to get there. And yet the political system was 
saying, well, it's only 4 percent; who gives a rip if it's 4 
percent? It's wiping out your budget.
    How do you suggest that we kind of incorporate into our 
national drug strategies intensity? Because that is really what 
we are talking about here. And that is why, should there be a 
measure that emergency that I just gave you, a series of 
variables that potentially could do that. But that seems to be 
some of what we are fencing around here, is because when they 
unveiled the meth raids and they came to the meth caucus and 
told the meth caucus: That problem's kind of under control; it 
is declining and so on. And it is, like, where? It's certainly, 
even in my district, they will say it is declining. Now, 
instead of being 30 percent over budget on overtime, they are 
10 percent over budget on overtime. Instead of having 60 labs, 
they have 40 labs. Instead of not being able to get to all the 
meth people, they are now able to get to maybe 60 percent of 
it. But still in Allen County, my home, which had very little, 
and in multiple other counties, we are getting--and this comes 
to the treatment question--that--well, in Noble County, that 
the prosecutor said he had one guy, he was up the third time 
and he still hadn't been sentenced by the judge for the first 
time.
    Now, this is what's driving the locals crazy. And when 
anybody who watches this saying, well, meth seems to be getting 
under control, it is not measuring the intensity of the impact 
that it is having on the child support system, on the local law 
enforcement system, on the jail capacity. And even if this 
declines 15 percent, 15 percent doesn't alleviate the pressure, 
unless the 15 percent--or 25 percent, I guess it was for mom-
and-pop labs. I am not sure 25 percent alleviates the pressure. 
It may be that we have to go 50 percent on the mom-and-pop 
labs. Because if there is not an intensity measure here, it is 
just some kind of number we picked out of the sky. And I want 
to get your reaction to that. I know you basically agree with 
that. But as you go into these conferences, one of the 
questions is, how do you pick up intensity? Fentanyl is an 
example. I mean, all of a sudden, a whole bunch of deaths. That 
is as many deaths from one drug that nobody ever heard of than 
you have in a city with all the other drugs combined for that 
same period. How do you measure intensity, and how do we factor 
that into our planning?
    Mr. Gallant. Well, I think one way we can do it is to work 
with SAMHSA and HHS to develop a national data system to 
collect data regarding use, intensity of use, and so forth. 
Right now, the block grant moneys that come to States we do 
provide client level data, but that is the only Federal money 
that comes to States that require client level data. So you 
have a whole other set of dollars coming out of the Justice 
Department, coming out of other agencies that don't collect or 
don't provide the single State authority data that they then 
can roll up to SAMHSA to give a national picture of use.
    So one of the recommendations I would have is that anyone 
receiving Federal dollars should be required to link with the 
SSA, to ensure that SSA is collecting client level data so we 
can get a whole picture of what is going on nationally 
regarding use.
    The other piece that I think would be good is to have data 
flow up. And the National Household Data Survey, I think as 
pointed out by Sue Thau, really--doesn't really give you sub-
state level indications of use. It gives you a national 
picture, but it doesn't allow you to say what is going on in 
the bowels of--how or what's going on in the counties of 
Indiana or the cities of Indiana. That can only be done by 
developing a system that allows States to take a real good 
snapshot of what's going on within their areas, and then feed 
that data up to our Federal partners to get a national picture.
    Mr. Souder. Because in Indiana, for example, I think we 
were fifth in labs, but really less than 20 percent of the 
State is impacted by meth labs. In my own district, I have 
three of the major counties, and then I have two counties that 
don't have a single one, basically, or minimal even in the same 
geographical area, and one county is next to another county. 
One county had I think 80, and the other county had zero labs, 
and they are both rural counties next to each other. That, 
trying to understand the intensity of the panic and how to deal 
with this is one of our huge challenges. Mr. Coleman.
    Mr. Coleman. We agree with your statements, Mr. Chairman. 
We don't have the answers and the numbers that you are looking 
for, but we would be willing to work with you. We do know one 
thing: It is affecting county budgets across this country 
untold. The amount of cases being heard in the drug courts is 
phenomenal. From 1 year to the next, it seems to be doubling 
and tripling. Yet we are all looking for these answers, and we 
hope that, by working together as a collective group, we can 
come up with these answers and start addressing this problem 
immediately, not in 2011.
    Mr. Souder. And it's a challenge that isn't just meth. I 
was trying to address it as we look in the overall drug 
strategy, because, as you well know, that in the early 1980's, 
crack is still a huge--and cocaine--is still the biggest 
problem in my biggest city, Fort Wayne, which is not that far 
from Detroit. And there was at one point where we were very 
high in the number of crack houses, and crack was devastating 
the city of Fort Wayne. And literally, the way we learned what 
was leading to this huge growth of gangs was in the course of 
a--the prosecutor and my then boss Congressman Coats, we put 
together a thing where one of the things the prosecutor 
initiated was giving a urine test to the kids at the youth 
center. Found that almost all of them were tested for crack. 
And it's like, crack. That was up in Detroit; that is not down 
in Fort Wayne, which then, when they start to go through some 
of the gang kids, realized that there was a connection to some 
of the groups that were coming down. And at one point, there 
were 155 crack houses in the city of Fort Wayne. Now, that 
doesn't mean 155 working on a given night. What it means is 
there were 155 houses where they were moving through that were 
abandoned in the urban area, which then often led to a 
reaction: Well, you tear all that down, and then you have all 
these vacancies, and then people wonder why you can't get a 
grocery store to work in a community. And we have watched in 
our urban areas kind of this reaction and overreaction to how 
you deal with those kind of drugs. Because when an intensity 
grabs a community, whether it is meth or whether it is cocaine 
or whether it is Fentanyl, it has a disproportionate reaction. 
And unless we are reacting to some degree to the topic at hand, 
we are not relevant. And then we can't get by into the overall 
narcotics strategy, because people go, well, why are you doing 
that when I have this problem here? Because ultimately you do 
have to have some threat of a national strategy that is common 
with all this. You can't go jerk into whatever the drug is of 
the day. But if you don't have any responsiveness, local law 
enforcement goes: What are you doing? This isn't my problem.
    Any other comments on this on how you might address it?
    Mr. Brooks. Well, I don't know exactly how to address it, 
but you have hit the nail on the head. There are really two 
meth problems in America. There are the small toxic labs which 
are really the face of meth. I mean, when communities think of 
meth, they think of all of the medical and law enforcement and 
child protective services that are tied up with drug-endangered 
children, with environmental issues, with law enforcement 
issues. But DEA and DOJ is probably correct: 80 percent of our 
meth probably is from large drug trafficking organizations, 
super labs in California, and now increasingly more in Mexico. 
And these are poly drug issues. I mean, when we buy meth in 
California, traditionally they will say, OK, you want 50 pounds 
of meth, but you have to take 3 pounds of heroin and 10 kilos 
of coke, because we are a poly--you know, because that's their 
business plan.
    So we can't lose sight of one problem for the other. And 
that is traditionally what it seems like we do, is we chase our 
tail a little bit and we run around. We have to be more 
flexible. And I think part of being more flexible and 
responsive--and that is my frustration in this Synthetic Drug 
Control Strategy, is the fact that nobody talked to the 
treatment docs, to the cops, to the community anti-drug 
coalitions, to the trial protective services workers. Because 
if you talk to them, you will have a pretty good picture of 
what is going on in America. You will understand pretty much 
how we need to craft the strategy. And so if we stay--if we 
keep that in sight--and I think Congressman Cummings made the 
point earlier in his comments, that we have to talk to the 
people that are on the ground doing the job, and be able to 
respond immediately, as we are responding to Fentanyl, as we 
responded to meth in the early days in 1995 and 1996 as it 
became an emerging problem when DEA ramped up.
    You mentioned the tribal lands issue, and I have to give 
credit to the U.S. DOJ, especially the Bureau of Justice 
Assistance. They are ramping up training for tribal lands' meth 
issues. They have ramped up on the National Criminal 
Intelligence Sharing Plan, on the risk projects that help us 
share all this information and work smarter. They are working 
on an incentive program that helps train us and let us work 
smarter. DEA is doing an outstanding job. The Office of State 
and Local Affairs at ONDCP is working diligently with the 
HIDTAs to do a good job, and the disconnect appears to be at 
the leadership from ONDCP.
    Mr. Souder. Any other comments?
    Ms. Green. Mr. Chairman, one of the things that would help, 
and it relates to everything we are saying, is to have an 
infrastructure. And, again, this is not my forte. But in terms 
of the work that we do with all of our colleagues, it would 
help to have an infrastructure that could actually pull 
information on a number of different variables, meth lab 
seizures, foster care placements, county budgets, treatment 
admissions, community coalition information, and people who are 
qualified at a national level to review all of that information 
and hopefully assess what that means in terms of intensities on 
the other impacts.
    Some of the things that we ran into earlier on when we were 
working on the meth issue is that some people would only focus 
on usage numbers and completely ignore the massive drain on 
system resources that were occurring in a number of the States. 
So rather than get into those particular fights involving 
resources, it would have been helpful to have someone who was 
actually pulling all this information and saying, well, look 
what's happening with treatment admissions, look what's 
happening on county budgets, look at lab seizures, look what's 
happening in schools. We never had that. And so we ended up 
with individuals, at least in our work at State and local 
levels, fighting over, well, usage numbers are really this. And 
yet we had Ron and his colleagues and Sue and her colleagues 
and Eric and his colleagues and Dr. Gallant, his colleagues 
saying: Well, yes, but we're having a--we're feeling a 
significant impact on this.
    So it would be helpful to have that kind of infrastructure, 
not just on meth. Because if the infrastructure is set up 
properly, then it can respond quickly. Part of the frustration 
for all of us on the meth is that without that kind of 
infrastructure there was a lot of crisis management going. When 
we were working with States on State legislation, mostly people 
were not coming to us in a preventive mode with the exception 
of the last year. They were coming to us in a crisis mode, 
saying, we've got 1,400 labs, we've got to do something.
    If there had been a proper infrastructure in place to do 
the kind of early warning that you are suggesting, somebody 
would have known in advance, wait, a minute, it's impacting law 
enforcement, foster care placements, county budgets, treatment 
admissions, communities, and schools. None of us had that 
information available to us. We didn't have anybody saying that 
to us. It was because we decided to coordinate with each other 
and said: Well, what are you seeing? What are you seeing? What 
are you seeing? What are you seeing? That is how we figured it 
out. And one of the frustrations for us is that early on when 
we were trying to work with State and local legislatures, part 
of it was, who is just looking at usage numbers saying, you 
know, really this isn't a problem is ONDCP.
    Mr. Souder. I thank you all for your comments. One of the 
things that--I mean, because, ultimately, this is what ONDCP is 
supposed to be doing. And the question is, why aren't they? Is 
it structural, or is it individual, or is it both? To the 
degree it is structural, we passed our House version; the 
Senate is moving it. But as we move to conference, maybe we can 
look at, is there a way to build in a structural way to get the 
kind of input into the ONDCP reauthorization. Individuals 
change; the structure outlasts the individuals. And we need to 
look at how we need to work some of these big questions through 
as we are working the HIDTAs, as we are working the community 
anti-drug coalitions. But then, part of it is that we've got 
things in multiple agencies: DOJ; Safe and Drug Free Schools is 
over in education; treatments in HHS. And how--that was why we 
created a drug czar's office, was to try to at least influence 
and coordinate the information as these things are in multiple 
agencies. It has been pretty frustrating to me that the 
Department of Justice clearly has been involved in meth longer 
and at the grassroots, and yet Members of Congress basically--
and I don't know how many hearings I had, it was like, why 
wouldn't the administration just come out and say that they 
were involved? It was like pulling teeth. And I think part of 
it is that I'm not even sure the Department of Justice was 
aware at the grassroots how involved their local DEA agents 
were in the task forces, how involved their--what exactly was 
being done with their grants. They were anti-drug grants. And 
then in the communities, when they started dealing with it, it 
was meth. And the information was just seeping back to 
Washington that they were up to their eyeballs in meth, and 
they didn't know it. But what it meant was we didn't have any 
cohesion to trying to address what was overwhelming at the 
grassroots. And I think your input here has been helpful. We 
appreciate that. We will have this continuing dialog. We have a 
couple more field hearings coming up yet this summer. And thank 
you once again.
    Does anybody have any closing comment you would like to 
make? Then, with that, the subcommittee stands adjourned.
    [Whereupon, at 12:09 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T3394.153

[GRAPHIC] [TIFF OMITTED] T3394.154

[GRAPHIC] [TIFF OMITTED] T3394.155

[GRAPHIC] [TIFF OMITTED] T3394.156

[GRAPHIC] [TIFF OMITTED] T3394.157

[GRAPHIC] [TIFF OMITTED] T3394.158

[GRAPHIC] [TIFF OMITTED] T3394.159

[GRAPHIC] [TIFF OMITTED] T3394.160

[GRAPHIC] [TIFF OMITTED] T3394.161

[GRAPHIC] [TIFF OMITTED] T3394.162

[GRAPHIC] [TIFF OMITTED] T3394.163

[GRAPHIC] [TIFF OMITTED] T3394.164

[GRAPHIC] [TIFF OMITTED] T3394.165

[GRAPHIC] [TIFF OMITTED] T3394.166

[GRAPHIC] [TIFF OMITTED] T3394.167

[GRAPHIC] [TIFF OMITTED] T3394.168

[GRAPHIC] [TIFF OMITTED] T3394.169

[GRAPHIC] [TIFF OMITTED] T3394.170

[GRAPHIC] [TIFF OMITTED] T3394.171

[GRAPHIC] [TIFF OMITTED] T3394.172

[GRAPHIC] [TIFF OMITTED] T3394.173

[GRAPHIC] [TIFF OMITTED] T3394.174

[GRAPHIC] [TIFF OMITTED] T3394.175

[GRAPHIC] [TIFF OMITTED] T3394.176

[GRAPHIC] [TIFF OMITTED] T3394.177

[GRAPHIC] [TIFF OMITTED] T3394.178

[GRAPHIC] [TIFF OMITTED] T3394.179

[GRAPHIC] [TIFF OMITTED] T3394.180

[GRAPHIC] [TIFF OMITTED] T3394.181

[GRAPHIC] [TIFF OMITTED] T3394.182

[GRAPHIC] [TIFF OMITTED] T3394.183

[GRAPHIC] [TIFF OMITTED] T3394.184

[GRAPHIC] [TIFF OMITTED] T3394.185

[GRAPHIC] [TIFF OMITTED] T3394.186

[GRAPHIC] [TIFF OMITTED] T3394.187

[GRAPHIC] [TIFF OMITTED] T3394.188

                                 <all>

</pre></body></html>
